SEMIANNUAL REPORT TO CONGRESS                                               SEPTEMBER 30, 2003




               MESSAGE FROM TIGTA’S
               SENIOR EXECUTIVE TEAM
                                              The Treasury Inspector General for Tax
                                              Administration (TIGTA) has experienced significant
                                              changes over this reporting period that will shape
                                              our future. Most notably, we welcomed the
                                              arrival of Mark Everson, the new Commissioner of
                                              Internal Revenue. Upon Mr. Everson’s arrival, he
                                              outlined three major management challenges for
                                              the Internal Revenue Service (IRS). In his
                                              May 20, 2003, testimony before the Congressional
                                              Joint Review1, he identified these three areas as
                                              improving customer service; continuing the
                                              information technology modernization program;
                                              and enhancing enforcement activities. In
                                              addition to these three, TIGTA identified the
                                              following IRS management challenges for Fiscal
                                              Year (FY) 2003: IRS security; complexity of the tax
                                              law; human capital; and integrating performance
       TIGTA’s Senior Executives              and financial management. This report highlights
 Left to Right: Steve Jones, Gordon           our significant accomplishments during the past six
 Milbourn, Marty Greiner, Joe
 Hungate, and Pam Gardiner.                   months that contribute to addressing these
 (Not shown: Mary Anne Curtin)                management challenges.

 While welcoming the new Commissioner, we also bade a fond farewell to former
 IRS Deputy Commissioner Bob Wenzel, as he retired. Mr. Wenzel joined the IRS in
 1963 as a Revenue Officer in Chicago. He served as the Deputy Commissioner of
 Internal Revenue beginning in 1998. On October 15, 2002, then Treasury
 Secretary Paul O’Neill announced that Mr. Wenzel would serve as the Acting
 Commissioner, upon Commissioner Rossotti’s departure on November 6, 2002.
 We thank Mr. Wenzel for all of his support over the years and wish him all the best
 in his retirement.

 Another significant event was the proposal in the President’s fiscal year 2004 budget
 to consolidate the two Inspectors General within Treasury. The passage of this
 legislative proposal is uncertain at this time. This uncertainty has contributed to the



 1
     The Congressional Joint Review includes two Members of the majority and one Member of the minority from
     each of the House Committees on Ways and Means, Appropriations, and Government Reform and the Senate
     Committees on Finance, Appropriations, and Governmental Affairs.


                                                                                                       1
SEMIANNUAL REPORT TO CONGRESS                                                    SEPTEMBER 30, 2003



 extended vacancy in our Inspector General (IG) position since the retirement of
 David C. Williams in August 2002.

 Despite these major changes, TIGTA has been very productive during the past year.
 Many of our accomplishments during FY 2003 helped improve tax administration and
 subsequently aided taxpayers nationwide. Specifically, with the issuance of
 212* audit reports, we identified more than $1.9 billion in cost savings and an additional
 $7.2 billion in increased revenue or revenue protected. During this six-month reporting
 period (April 1 through September 30, 2003), we received 4,034 complaints of alleged
 criminal wrongdoing or administrative misconduct, opened 2,249 investigations and
 closed 2,595. Additionally, the Office of Chief Counsel reviewed 158 proposed
 regulations and legislative requests during the past six months.

 Finally, 2003 marks the 25th anniversary of the Inspector General Act, and so we join
 the Offices of Inspectors General throughout the Federal Government in celebrating
 this significant milestone. As we embark on our journey into the next quarter century
 as an IG community, it is TIGTA’s sincere wish that the future will prove to be just as
 successful as the previous 25 years.

 * The figure representing total audit reports for the fiscal year (212) is a correction of the amount (123) shown in
 the previously published printed version of this report. We have also clarified references to the reporting period
 in this paragraph.




                                                                                                               2
SEMIANNUAL REPORT TO CONGRESS                                    SEPTEMBER 30, 2003




                            TABLE OF CONTENTS
                                                                                        Page


  Message from TIGTA’s Senior Executive Team…….……….………………….…….…….….1

 TIGTA’s Organizational Structure and Mission……………..…………………….………….…5
 Improving the Economy,
  Efficiency, and Effectiveness of Tax Administration….……………………….….…....….…8

       Providing Quality Customer Service Operations……….……………….…...…….….8
       Information Technology Modernization Program……..….………………....…....…..9
       Enhanced Enforcement Activities – Tax Compliance………..………….………….11
       IRS Security………………………………………………………………………….……….14
       Complexity of the Tax Law……………………………………………………………….18
       Human Capital….………….………………………………………………………...…….18
        Integrating Performance and Financial Management…………..….……….……19

 Detecting and Deterring Fraud in IRS
 Programs and Operations….………………………………………………….…….…………..21

       Employee Integrity………………………………………………………….....…………..21
       External Attempts to Corrupt Tax Administration……………………………….……24

 Congressional Testimony..................…......................................……………………….……26

 Awards and Special Achievements ………………………………………....……….………27

 Appendices

 Appendix I - Audit Statistical Reports

       Audit Reports With Questioned Costs………………….………………….….………..30
       Prior Period Reports…….……………………………………………………….….……...30
       Reports With Recommendations That Funds Be Put to
          Better Use…………………………………………………………………….…....……..31
       Reports With Additional Quantifiable Impact on Tax
          Administration……………………….……………………………………….….………32




                                                                                        Page


                                                                                         3
SEMIANNUAL REPORT TO CONGRESS                                   SEPTEMBER 30, 2003



 Appendix II - Office of Investigations - Statistical Reports

     Investigations Opened and Closed………………………………………………………34
    Financial Accomplishments…………………….……………………………….……….…34
     Status of Closed Criminal Investigations…………….………………...……………..…..34
    Criminal Dispositions……..…………………...………………………………………………35
    Administrative Disposition on Closed TIGTA Investigations……………………………35
     Complaints/Allegations Received by TIGTA…………………………………………….36
    Status of Complaints/Allegations Received by TIGTA….………………….…………..36
    Allegations of Misconduct Against IRS Employees……………….………….…………37
    Report of Employee Misconduct for the Period 4/1/03-9/30/03
        Summary by Disposition Groups……..…………………………………………………37
    Report of Employee Misconduct for the Period 4/1/03-9/30/03
        National Summary……………….……..…………………………………………………37
    IRS Summary of Substantiated §1203 Inquiries Recorded in ALERTS
        for the Period 4/1/03-9/30/03…….……....……….…………….………………………38

 Appendix III - Statistical Reports – Others

    Audit Reports With Significant Unimplemented Corrective
      Actions…………….……………….……..………………………………………………….39
    Statistical Reports – Others….…………..……………………………………….………….47

 Appendix IV - Audit Products

    April 1, 2003 – September 30, 2003……….………………………………………………..48

  Appendix V - Statutory TIGTA Reporting Requirements…….…….…….…………………56

 Appendix VI - Section 1203 Standards…...…..……………….………………….…………..63

 Hotline Information……………………………………………….………………….……………64




                                                                                4
SEMIANNUAL REPORT TO CONGRESS                              SEPTEMBER 30, 2003




            TIGTA’S ORGANIZATIONAL
             STRUCTURE AND MISSION

                                     Inspector General




                    Chief Counsel




              Deputy Inspector General              Deputy Inspector General
                      for Audit                        for Investigations




                Assistant Inspector                   Assistant Inspector
              General for Management                 General for Information
                      Services                           Technology



 TIGTA provides independent oversight of IRS activities, the IRS Oversight Board, and
 the IRS Office of Chief Counsel. Although TIGTA is organizationally placed in the
 Departmental Offices and reports to the Secretary of the Treasury, it functions
 independently from the Departmental Offices and all other offices and bureaus
 within the Department. TIGTA’s focus is devoted to all aspects of work related to tax
 administration.

 TIGTA’s primary organizational functions are the Office of Audit (OA) and the Office
 of Investigations (OI). TIGTA’s Offices of Chief Counsel, Information Technology, and
 Management Services support OA’s and OI’s efforts.

 TIGTA’s goal is to conduct audits and investigations designed to:

       •   Promote economy, efficiency, and effectiveness in
           administering the nation’s tax system.
       •   Detect and deter waste, fraud and abuse in IRS programs
           and operations.




                                                                                 5
SEMIANNUAL REPORT TO CONGRESS                               SEPTEMBER 30, 2003



 TIGTA protects the public’s confidence in the tax system by supporting the IRS in
 achieving its strategic goals, identifying and addressing IRS’ material weaknesses,
 and implementing the President’s Management Agenda and the Department of
 Treasury’s priorities.

 TIGTA’s comprehensive, independent performance and financial audits of IRS
 programs and operations focus on mandated reviews and on high-risk challenges
 facing the IRS. The audits address a variety of issues, including information
 technology; computer and employee security; tax compliance initiatives;
 performance and financial management; taxpayer protection and rights; tax return
 processing; customer service; and tax fraud. TIGTA also performs audits to
 determine if the IRS adequately ensures fair and equitable treatment of taxpayers.

 Audit recommendations result in cost savings, such as protection of revenue and
 increased revenue. Other quantifiable impacts include the reduction of taxpayer
 burden; protection of taxpayer rights and entitlements; taxpayer privacy and
 security; and protection of IRS resources.

 TIGTA’s investigative program, pursuant to its statutory responsibility to prevent and
 detect fraud, waste and abuse in the programs and operations of the IRS, includes:

         •    Investigating allegations of criminal violations that impact
              tax administration, and administrative misconduct by IRS
              employees and contractors.
         •    Conducting integrity/fraud awareness presentations for IRS
              employees and others, such as tax practitioners and
              community groups.
         •    Operating a hotline to receive and process complaints of
              fraud, waste, abuse and misconduct involving IRS
              employees and programs.
         •    Conducting proactive investigative initiatives that ferret out
              criminal and administrative misconduct in the administration
              of IRS programs.
         •    Operating a Criminal Intelligence Program (CIP) that
              manages threat information that could impact IRS
              employees and functions.
         •    Investigating fraud, waste, and abuse involving IRS
              procurements.
         •    Conducting forensic examinations of physical and
              electronic evidence to support investigations.
         •    Using technical and investigative support, equipment,
              training, and other specialized services to enhance
              investigative operations.




                                                                                   6
SEMIANNUAL REPORT TO CONGRESS                                         SEPTEMBER 30, 2003




  TIGTA INVESTIGATIONS PROTECT TAX ADMINISTRATION            TIGTA protects the Department of
                                                             Treasury’s ability to collect
                        Employee Integrity
                                                             revenue owed to the Federal
                                                             Government. TIGTA accomplishes
                                                             this goal by providing
                                                             comprehensive investigative
                                                             services focused on three
    External Attempts to                 Employee and        programs: IRS employee integrity;
        Corrupt Tax                  Infrastructure Security
       Administration
                                                             IRS employee and infrastructure
                                                             security; and external attempts to
          TIGTA Investigative Performance Model
                                                             corrupt federal tax administration.
                                                             In order to focus investigative
 resources on its primary program areas, TIGTA developed and implemented a
 performance model to help it achieve the most return on investment for the IRS,
 the Treasury Department, and the American taxpayer.


                                     TIGTA’s Statutory Mission

  Protect the IRS against external attempts to corrupt or threaten its employees.
  Provide policy direction and conduct, supervise and coordinate audits and investigations related
   to the programs and operations of IRS.
  Prevent and detect fraud, waste, and abuse in the Department of Treasury as they relate to the
   IRS and related entities.
  Promote economy and efficiency in the administration of the tax laws.
  Inform the Secretary of the Treasury and Congress of problems identified and the progress
   made in resolving them.
  Review existing and proposed legislation and regulations related to programs and operations of
   the IRS and make recommendations concerning the impact of such legislation or regulations.



                                  AUTHORITIES
 TIGTA has all the authorities granted under the Inspector General Act of 1978, as
 amended. TIGTA also has access to tax information in the performance of its tax
 administration responsibilities and has the obligation to report potential criminal
 violations directly to the Department of Justice. The Inspector General and the
 Commissioner of Internal Revenue have established policies and procedures
 delineating responsibilities to investigate potential criminal offenses under the
 internal revenue laws.

 In addition, the IRS Restructuring and Reform Act of 1998 (RRA 98) amended the
 Inspector General Act of 1978 to give TIGTA statutory authority to carry firearms and
 execute the provisions of the Internal Revenue Code (I.R.C.) §7608(b)(2). These
 provisions include law enforcement authority to execute and serve search warrants
 and subpoenas, and make arrests.


                                                                                               7
SEMIANNUAL REPORT TO CONGRESS                                                    SEPTEMBER 30, 2003




        IMPROVING THE ECONOMY,
      EFFICIENCY, AND EFFECTIVENESS
          OF TAX ADMINISTRATION

            PROVIDING QUALITY CUSTOMER SERVICE
                       OPERATIONS
 Providing top quality service to every taxpayer in every transaction is integral to
 the IRS’ modernization plans. The IRS provides customer service through walk-in
 services, toll-free telephone services, access through the IRS’ Internet
 (Digital Daily), written communications to taxpayers, and accurate and timely tax
 refunds. Each of these services affects a taxpayer’s ability and desire to comply
 voluntarily with the tax laws.

 In response to Congressional concerns throughout 2003, TIGTA has been
 determining if IRS employees in Taxpayer Assistance Centers (TACs) provide
 accurate and timely responses to taxpayers’ tax law questions. From January
 through June 2003, TIGTA auditors asked 411 tax law questions in 104 TACs and
 found that IRS employees incorrectly answered 25 percent of the questions.
 However, TIGTA recognizes that the IRS continues to improve the quality of service
 at the TACs and commends the IRS for taking immediate actions on issues
 identified in TIGTA’s previous audit reports. IRS executives have been actively
 engaged in the development and implementation of these actions. TIGTA
 believes the increase in accuracy rates compared to the same period in
 Calendar Year 2002 can be directly attributed to these actions.

 During the 2003 Filing Season2, IRS Customer Service Representatives (CSR) handled
 24 million calls concerning tax law questions. TIGTA auditors measured the quality of
 the IRS toll-free assistance program while monitoring live taxpayer phone calls. The
 results indicated a need for the CSRs to ask taxpayers additional questions related to
 the taxpayer’s situation, in order to collect all necessary information to give a
 correct and complete response. Management agreed with the recommendations
 and is taking corrective action.
 Report Reference Nos. 2003-40-120, 2003-40-157, 2003-40-158, and 2003-40-216

 The Office of the Taxpayer Advocate (OTA) conducts systemic advocacy projects
 to resolve and prevent recurring problems faced by taxpayers. However,
 competing OTA priorities, combined with the absence of timeliness standards and
 2
     The “filing season” is the period from January through mid-April when most individual income tax returns
     are filed.

                                                                                                                8
SEMIANNUAL REPORT TO CONGRESS                                                 SEPTEMBER 30, 2003



 complete management information systems, have delayed systemic advocacy
 projects, thereby adversely affecting a substantial number of taxpayers. TIGTA
 determined that potentially 16.7 million taxpayers are continuing to be affected by
 the problems identified in the projects TIGTA auditors sampled. Work on these
 projects stops for up to eight months each year when advocacy analysts are re-
 assigned to work on the National Taxpayer Advocate’s (NTA) Annual Report to
 Congress.

 TIGTA recommended the NTA formalize the policy of and implement a process for
 managing concurrently working on systemic advocacy projects and assignments in
 support of the NTA’s Annual Report to Congress. TIGTA also recommended that the
 NTA establish timeliness and staff resource standards for conducting systemic
 advocacy projects, and upgrade its management information system to provide
 data on systemic advocacy project activities and staff resources to assist managers
 in monitoring and budgeting for project resources.

 The NTA concurred with the premise of the recommendations; however, the NTA
 believes that substantial improvements have already been implemented. TIGTA
 attempted to evaluate the actions taken to date by the NTA to improve systemic
 advocacy projects; however, no measurable benefits could be determined
 because several actions had not been developed or implemented at the time of
 our review. The NTA also disagreed that TIGTA’s recommendations would reduce
 the burden to potentially 16.7 million taxpayers. However, TIGTA believes that the
 NTA did not consider all types of taxpayer burden and therefore TIGTA stands by its
 initial projection.
 Report Reference No. 2003-10-187



      INFORMATION TECHNOLOGY MODERNIZATION
                     PROGRAM
 The Business Systems Modernization (BSM) program is in the fifth year of its efforts to
 upgrade and modernize the IRS’ information technology and business systems. The
 BSM program is an extremely complex effort. During FY 2003, the BSM program
 made progress in defining necessary management processes and capabilities for
 effectively acquiring and implementing information technology systems. Deployed
 projects include the first release of the infrastructure system for future BSM
 applications and an upgraded Internet Refund application accessed over 15 million
 times during the filing season.

 The Business Systems Modernization Office (BSMO) and the PRIME3 contractor have
 made significant progress in revising and refining testing processes and practices
 from lessons learned during the early testing of BSM projects. However, the BSM

 3
     The PRIME contractor is the Computer Sciences Corporation, which heads an alliance of leading technology
      companies assisting the IRS with modernizing its computer systems and related technology.

                                                                                                         9
SEMIANNUAL REPORT TO CONGRESS                                 SEPTEMBER 30, 2003



 project teams have not implemented fully these processes and practices. In all
 eight BSM projects analyzed, TIGTA identified concerns with the project testing
 practices followed, such as insufficient test plans, incomplete testing activities, and
 inadequate actions to resolve failed tests.

 TIGTA reported that the inadequate testing practices are the result of the BSM
 project teams attempting to meet overly optimistic project schedules. Several
 factors contributed to the schedule pressures, including budget constraints,
 inadequate resources, and changing business requirements. All of the BSM testing
 projects reviewed were either delivered late or are significantly behind planned
 delivery dates.

 Implementing and following defined testing processes will reduce the possibility of
 undetected errors, allow identified errors to be fixed before project deployment,
 and increase the extent to which a system can be relied upon to provide accurate
 information and safeguard taxpayer data. Following and improving defined testing
 processes is equally important since it will improve project team maturity and
 significantly improve the chances of BSM program success. Since the purpose of this
 review was to present issues and trends in BSM testing processes, TIGTA did not make
 any recommendations. Management generally agreed with TIGTA’s assessment.
 Report Reference Nos. 2003-20-178 and 2003-20-127

 Until recently, the PRIME contractor’s cost and schedule estimation process was
 decentralized at the project level, and the IRS had not independently reviewed
 these estimates or the PRIME contractor’s estimation system. In response to criticism
 and the need to improve processes, the IRS has tasked the PRIME contractor to
 build a program-wide cost and schedule estimation system. In addition, the IRS has
 created a process for independently reviewing and validating these estimates.
 While some progress has been made in establishing a program-wide estimation
 system, it has not yet been completed, validated or implemented, so TIGTA could
 not determine if it would produce reliable estimates.

 TIGTA recommended the BSMO ensure all BSM contractors follow estimation
 guidance, ensure the cost and schedule model calibration process is documented,
 ensure an independent assessment of the cost and schedule system is made once
 improvements are implemented, and improve system validation and estimate
 review processes. Management’s response was not received prior to the issuance
 of the audit report.
 Report Reference No. 2003-20-219




                                                                                    10
SEMIANNUAL REPORT TO CONGRESS                                                 SEPTEMBER 30, 2003




           ENHANCED ENFORCEMENT ACTIVITIES -
                   TAX COMPLIANCE
 The mission of the IRS Criminal Investigation (CI) function is to investigate potential
 criminal violations of the Internal Revenue Code (I.R.C.) and related financial crimes
 in a manner that fosters confidence in the tax system and compliance with the law4.
 A 1999 independent review, led by Judge William Webster5, concluded that CI’s
 focus had drifted from its primary mission of investigating potential violations of the
 I.R.C. concerning legal sources of income6. The CI function established Lead
 Development Centers (LDC) to assist in identifying and developing legal income
 source tax investigations, as opposed to other CI investigations that target illegal
 income derived from activities such as drug dealing7. CI also receives allegations of
 potential tax fraud through the IRS’ toll-free Tax Fraud Hotline.

 TIGTA’s reviews of the LDC and hotline programs determined that CI needs to
 improve its processes and make more effective use of LDC and hotline resources
 and information. CI offices did not communicate project objectives clearly or
 provide sufficient information on allegations, LDC research did not always address
 the allegations adequately, and the LDCs may have conducted unnecessary
 research based on the CI field offices’ subsequent closing actions and time
 expended. Further, TIGTA auditors determined that CI gave only limited scrutiny to
 hotline leads and rarely assigned hotline allegations to CI field agents for
 investigation. Finally, the CI function did not provide specific guidance to ensure
 that allegations of refund fraud or questionable return preparer activity reported to
 the hotline were used to prevent the issuance of potentially fraudulent refunds.

 TIGTA recommended that management include applicable research projects in the
 LDC inventory and return the fraud referral process to the CI field offices; establish
 procedures to improve the research guidance for the LDCs; emphasize the need for
 effective communication between the LDCs and CI field offices; and implement a
 review process to evaluate the impact on LDC resources when CI field offices close
 cases with little additional investigative time.

 To improve the Tax Fraud Hotline process, TIGTA recommended that procedures be
 revised to specify that LDC managers prioritize research of informant allegations
 based on their relative potential, without giving routine preference to field office
 requests, and assess the adequacy of the preparation of forms that refer hotline
 information to the LDCs proactively. TIGTA also recommended that procedures be


 4
   This statement is CI’s mission statement. The following website is CI’s home page and contains its mission
   statement: http://www.hq.irs.gov/ci/about/mission.htm.
 5
   The following website contains the Webster Report: http://www.hq.irs.gov/ci/documents/websterreport.pdf.
   The cover sheet and Judge Webster’s letter dated April 9, 1999, support this statement.
 6
   This statement is supported in the first paragraph, second sentence, of the Executive Summary and the second
   paragraph, second sentence of website : http://www.hq.irs.gov/ci/documents/websterreport.pdf.
 7
   The support for this statement is listed in the following website, under the section entitled “Legal Source Tax
   Crimes Program,” first paragraph: http://www.treas.gov/irs/ci/compliancestrategy.htm.

                                                                                                           11
SEMIANNUAL REPORT TO CONGRESS                                                 SEPTEMBER 30, 2003



 developed that establish specific criteria for, and guide the referral of appropriate
 hotline information to, the Fraud Detection Centers on allegations of refund or return
 preparer fraud. To evaluate the benefits of the hotline, the number and results of
 investigations should be tracked. Although CI management generally agreed with
 TIGTA's recommendations, they did not always propose sufficient corrective actions
 to address the issues.
 Report Reference No. 2003-10-201 and 2003-10-210

 IRS’ goal of providing world-class service to taxpayers hinges on the theory that if the
 IRS provides the right mix of education, support, and up-front problem solving to
 taxpayers, the overall rate of voluntary compliance with the tax laws will increase.
 The challenge to IRS management is to establish a tax compliance program
 (examining tax returns and collecting tax liabilities) that identifies those who do not
 meet their tax obligations either by not paying the correct amount of tax or not filing
 proper tax returns, and that effectively brings them into compliance. As part of its
 2000 reorganization, IRS has begun to revamp its business processes to stabilize
 traditional compliance activities.

                    ACS TDI Closures - FYs 1997-2002              The Automated Collection System
                                                                  (ACS) function’s business results
               2,500,000                                          significantly decreased from FY 1997
                           2,231,530                              to FY 1999 and continued to decline
               2,000,000
                               1,790,844                          for the two full fiscal years the Small
                                       1,425,707                  Business/Self-Employed (SB/SE) Division
               1,500,000
     Modules




                                                                  was in operation (FYs 2001 and 2002).
               1,000,000                      822,054
                                                      The ACS function is a critical
                                                   516,030
          500,000                                     Collection operation, collecting nearly
                                                        348,103
                                                      $1 million per Full-Time Equivalent in
                0                                     FY 2002. However, it was far more
                  FY 97 FY 98 FY 99 FY 00 FY 01 FY 02
                                                      effective in the mid-1990s than in
                                                      FY 2001 and 2002. The ACS function’s
 results showed some improvement during the first seven months of FY 2003, but a
 relatively low priority assigned to Taxpayer Delinquency Investigations (TDI) may
 have long-term consequences for filing compliance. Also, the numbers of both TDIs
 and Taxpayer Delinquent Accounts (TDA) in the queue8 and shelved9 continued to
 grow significantly. The SB/SE Division is taking steps to improve Collection operations.
 In January 2003, the IRS implemented a method to identify probable collectible
 TDAs and filter out probable non-collectible cases. A team has recommended
 several approaches for optimizing the ACS function’s performance, and several
 additional projects are expected to improve the ACS function’s results.



 8
   The queue is an automated holding file for unassigned inventory of lower-priority delinquent cases that the
    Collection function does not have enough resources to immediately assign for contact.
 9
   Shelved accounts are delinquent unpaid accounts, or investigations of non-filed returns, that have been taken
    out of Collection inventory because they are lower priority.

                                                                                                           12
SEMIANNUAL REPORT TO CONGRESS                                SEPTEMBER 30, 2003



 TIGTA recommended that the IRS continue to monitor and evaluate the results of
 the initiatives and reevaluate resources for the TDI program, to reinforce a balanced
 program ensuring that filing compliance does not erode. Management agreed
 with the recommendation and has initiated corrective action.
 Report Reference No. 2003-30-186

 An offer in compromise (OIC) is an agreement between a taxpayer and the Federal
 Government that settles a tax liability for payment of less than the full amount owed.
 Concerns relating to the administration of the OIC Program have existed for some
 time. The enactment of RRA 98 made the OIC Program accessible to more
 taxpayers; as a result, the year-end inventory increased from approximately
 32,000 offers at the end of FY 1997 to approximately 95,000 at the end of FY 2001,
 and the percentage of inventory older than the IRS’ six-month goal increased from
 21 to 46 percent. The IRS initiated the Centralized Offer in Compromise (COIC)
 Program in August 2001 as a strategy to close more offers within six months in order
 to reduce the growing backlog of offers being received. TIGTA reported that the
 COIC Program is making progress toward achieving these goals. However, the
 reduction primarily resulted from significantly more offers being returned to
 taxpayers, and not because more offers were fully evaluated and then accepted or
 rejected. Taxpayers and their representatives contributed to the increase in
 returned offers by submitting offers that were not eligible or by not staying current in
 filing tax returns and making estimated tax payments while their offers were being
 evaluated. COIC sites also contributed to the higher number of returned offers by
 inappropriately returning 15 percent of the returned offers in the sample that could
 have been processed. Determinations of offers that could be processed were not
 done timely and requests for additional information from taxpayers occasionally
 included unnecessary items. However, the overall requests were reasonable and
 necessary to evaluate the offers.

 TIGTA recommended that an automated system be used periodically to track
 trends in reasons why offers are returned to taxpayers and then modify or highlight
 forms, instructions, and outreach information for those issues. TIGTA also
 recommended that the IRS develop a method to identify the primary sources of
 offers that cannot be processed and a strategy to address the issues of these offers,
 as well as those for unrealistic or frivolous offers. Also, management needs to use
 reports to help ensure that determinations that offers cannot be processed are
 being made timely; analyze the staffing mix at both COIC sites for the current
 volume of offers to be processed; and establish monthly reports to monitor the age
 of open offers in the various assignments. In addition, management needs to
 monitor continually the backlog of cases awaiting assignment to offer examiners
 and adjust the acknowledgement letter sent to taxpayers to reflect more
 accurately the estimated time before contact should be expected. Management
 agreed with the recommendations and has initiated corrective action.
 Report Reference No. 2003-30-182




                                                                                   13
SEMIANNUAL REPORT TO CONGRESS                                 SEPTEMBER 30, 2003



 During examinations, large corporate taxpayers sometimes file claims for additional
 deductions, credits, and/or other adjustments to taxable income that were not
 included on the original return. Filing these claims during examinations has been
 identified as a risk that could hamper efforts to meet the Large and Mid-Size Business
 (LMSB) Division’s performance goals. The LMSB Division believed these claims are a
 significant factor in extending the length of and time spent on examinations. The
 LMSB Division is considering issuing a new revenue procedure that would provide
 special treatment for those taxpayers who file claims during examinations.
 Examiners would be allowed to delay the claim evaluation process until after the
 ongoing examination is completed. However, TIGTA found that claims had
 relatively little effect on the length of these examinations and that the proposed
 new revenue procedure could increase the interest the IRS must pay on claims by
 approximately $1.84 billion over five years.

 TIGTA recommended the IRS direct that the design team’s study no longer be
 represented as the basis for changing the process for managing claims that are filed
 in large corporate examinations. In addition, TIGTA recommended the IRS conduct
 a pilot program to gather pertinent information concerning the effect the proposed
 procedure will have on the length of examinations and interest costs. In addition,
 survey results from the second study, now nearing completion, should not be
 represented as being statistically valid in determining the characteristics of formal
 claims filed in examinations or the amount of revenue protected from examining
 claims. Management agreed with the recommendations and is implementing
 corrective action.
 Report Reference No. 2003-30-176



                                 IRS SECURITY
                              INFORMATION SYSTEMS

 Security of the IRS’ information systems has been considered a material weakness for
 several years. Security will continue to be a major challenge for the IRS because of
 the interconnectivity of computer systems via the Internet and the risk of terrorism in
 the United States.

 Sensitive information is still unnecessarily vulnerable to attack by hackers, terrorists,
 disgruntled employees, and contractors. TIGTA recognizes that complete security
 can never be achieved and that there must be trade-offs between security and
 operational needs. However, to provide reasonable security, controls must exist at
 the perimeter, in the infrastructure, and in the applications that process sensitive
 data. TIGTA’s audits continue to identify significant weaknesses in each of these
 areas that could allow unauthorized access, destruction of data, and disruption of
 service. During the past six months, the IRS responded to these issues and has taken
 or plans to take adequate corrective actions.


                                                                                     14
SEMIANNUAL REPORT TO CONGRESS                                                SEPTEMBER 30, 2003



 The IRS initiated two significant efforts this year to improve computer security. First, it
 is investing considerable resources into addressing known computer security
 weaknesses. Specifically, it has revised its reporting of material weaknesses from a
 facility-based approach, which did not adequately describe the weaknesses, to an
 approach based on addressing root causes. The second significant effort is that the
 IRS is requiring business unit managers to review the security of the systems that
 support their operations, as required by the Federal Information Security
 Management Act 10.

 TIGTA believes that both of these actions could help the IRS change the perception
 held by many of its managers that security is solely the responsibility of the Chief
 Information Officer (CIO). While the CIO is still responsible for the perimeter and
 infrastructure technical controls, the security of applications is clearly the
 responsibility of the business unit managers who use them. Business unit manager
 involvement is critical because most of the security weaknesses TIGTA identified can
 be corrected by improved management and operational controls. By themselves,
 technical controls provided by the CIO cannot afford the necessary security.

 The IRS relies on its information systems to collect, process, store, and disseminate
 vast amounts of sensitive financial information for millions of taxpayers. The amount
 and sensitivity of this information makes the IRS a highly visible target for hackers,
 and, particularly, disgruntled employees and contractors who have ready access to
 IRS systems.

 During this reporting period, TIGTA identified that the IRS has moved toward allowing
 more and more of its employees to work away from the traditional office. This is, in
 part, because of the Congressional Federal Telework Mandate 200111, which
 required executive agencies to establish policies for employee telecommuting.
 While telecommuting provides benefits to both the Federal Government and its
 employees, there are related security risks that must be addressed.

 Working away from the office is not a new concept at the IRS. However, the
 number of employees who may telecommute continues to grow, and the IRS now
 has over 43,000 laptop computers in use. Laptop computers pose a significant risk
 because they enable employees to take vast amounts of information outside the
 traditional office space and these computers can be lost or stolen. There is another
 security risk with employees working away from the office. With the creation of
 home offices and the continuing use of permanent offices at taxpayer locations,
 the IRS has to provide its employees with the means to connect to its network from
 the outside while maintaining security over these connections.




 10
  Federal Information Security Management Act, Pub. L. No. 107-347, Title III, 116 Stat. 2946 (2002).
 11
  Department of Transportation and Related Agencies Appropriation Act, 2001, Pub. L. No. 106-346,
 Section 359, 114 Stat. 1356 (2000).

                                                                                                        15
SEMIANNUAL REPORT TO CONGRESS                                   SEPTEMBER 30, 2003



 The IRS provided a secure infrastructure for its employees to connect to the network.
 However, the IRS could enhance the security of the architecture.
 Recommendations were made to correct the specific weaknesses identified, with
 the IRS agreeing to most.
 Report Reference No. 2003-20-118

 TIGTA also operates a Strategic Enforcement Division (SED) that consists of data
 analysts, computer specialists, and criminal investigators who monitor, probe, and
 investigate the evolving electronic environment. SED responds to computer intrusion
 incidents, investigates IRS network vulnerabilities, conducts system penetration tests,
 and provides forensic processing of computers and other media in support of TIGTA
 investigations.

 During the reporting period, SED conducted proactive initiatives to evaluate IRS
 network vulnerabilities, including an initiative that assessed the integrity of IRS servers.
 Another initiative was launched to identify and remove unauthorized deployment of
 wireless technology within IRS facilities. Results of these proactive initiatives were
 provided to IRS management. In the past six months, TIGTA has conducted eight
 computer security reviews/tests and completed eleven investigations involving
 potential computer security breaches.


                  EMPLOYEE AND INFRASTRUCTURE SECURITY

 As part of its statutory mission, TIGTA investigates threats and attacks against IRS
 personnel, property, and data infrastructure. The President has designated the IRS a
 “critical infrastructure,” further highlighting TIGTA’s need to protect the Treasury
 Department’s ability to collect tax revenue by ensuring IRS employee safety and
 infrastructure security.

 In response to heightened security concerns and TIGTA’s responsibility for
 investigating threats against the IRS and its employees, TIGTA created a Criminal
 Intelligence Program (CIP), which proactively attempts to identify threats against IRS
 personnel and facilities. In an effort to improve the overall security of the IRS, the CIP
 provides information that enables the IRS to enhance its security measures. During
 this reporting period, TIGTA issued 46 advisories notifying IRS management of
 potential threats and completed 602 investigations of threats and assaults directed
 at IRS facilities and employees.




                                                                                       16
SEMIANNUAL REPORT TO CONGRESS                               SEPTEMBER 30, 2003



 The following are examples of IRS Employee and Infrastructure Security
 investigations conducted during this reporting period.


 Individual Arrested for Physically Assaulting an IRS Revenue Officer

 On April 4, 2003, an individual was arrested in the Western District of Michigan for
 physically assaulting a federal officer while that officer was engaged in official
 duties. The Revenue Officer was making a second attempt to serve a summons as
 part of a tax collection action. The individual grabbed the Revenue Officer’s arm
 with both hands and pulled him toward a building. The Revenue Officer was later
 released and he fled from the property.

 Individual Charged for Threatening to Kill an IRS Taxpayer Advocate

 On June 11, 2003, an individual was charged in the Southern District of Illinois for
 threatening to kill an IRS Taxpayer Advocate. The individual sent a threatening letter
 to the IRS in Missouri and subsequently left a telephone message threatening to kill
 an IRS Taxpayer Advocate.


 Individual Sentenced to 27 Years and Ordered to Pay $2,252,000 Restitution for
 Burning an IRS Office and Destroying Taxpayer Files

 On July 21, 2003, an individual was sentenced in the District of Colorado to 27 years
 incarceration and five years supervised release for destruction of Federal
 Government property by means of fire and three years incarceration and one year
 supervised release for forcible interference with IRS employees and administration.
 The individual is also required to pay over $2,252,000 restitution and was ordered to
 pay a $200 special assessment fee. The individual endeavored to intimidate and
 impede IRS employees acting in their official capacities by damaging and
 destroying taxpayer files, records, government equipment, and personal property
 by participating in the arson of the IRS’ Colorado Springs offices.


 Individual Convicted for Burning an IRS Office and Destroying Federal Government
 Property

 On August 4, 2003, a Federal jury convicted a second individual in the District of
 Colorado for destruction of Federal Government property by means of fire, forcible
 interference with IRS employees and administration, subornation of perjury, and
 tampering with a witness for the individual’s involvement in the arson of the IRS’
 Colorado Springs offices.




                                                                                  17
SEMIANNUAL REPORT TO CONGRESS                                SEPTEMBER 30, 2003




                  COMPLEXITY OF THE TAX LAW
 Tax law complexity is the highest-ranking problem individual and business taxpayers
 had with the IRS, according to the FY 2000 Taxpayer Advocate’s Annual Report to
 Congress. One example of this complexity is in the area of granting extensions of
 time to file individual tax returns, where IRS regulations and practices treat taxpayers
 differently for the same payment noncompliance, create unnecessary taxpayer
 burden, increase IRS operating costs, and reduce current year tax receipts. Current
 IRS extension regulations prevent the IRS from assessing Delinquency Penalties for this
 noncompliance, and require compliant taxpayers to file extension forms needlessly.
 IRS management has been unwilling to change the extension regulations.

 TIGTA recommended that the IRS change the regulations to provide clear,
 quantifiable guidelines for the level of payment compliance needed to obtain
 extensions to file; establish October 15 as the sole extended due date; provide
 equitable safeguards, commonly called “safe harbors,” to ensure that Delinquency
 Penalties are not assessed for inadvertent or minor underpayments; and require
 assessment of the Delinquency Penalty starting on April 16 for any delinquent tax
 amounts in excess of safe harbor allowances. The IRS agreed to establish October
 15 as the sole extended due date for individual taxpayers, and plans to form a study
 team to examine the other recommendations in depth.
 Report Reference No. 2003-30-162



                              HUMAN CAPITAL
 The IRS faces a range of serious personnel management issues, ranging from
 recruiting, training, and retaining employees to problems associated with the IRS’s
 recent reorganization and modernization efforts. TIGTA’s reviews in this area include
 a review of training information that the IRS provided to the IRS Oversight Board to
 assess IRS training efforts. TIGTA determined that the data provided was not
 adequate or reliable enough for the Board to perform an assessment or establish
 baselines. In addition, the costs of training courses and the allocation of training
 resources cannot be determined from either the Administrative Corporate
 Education System (ACES) or the IRS’ financial accounting system. While the IRS
 plans to implement a new Learning Management System with enhanced
 capabilities, plans are not adequate to demonstrate that the limitations of the data
 in the ACES and the IRS financial system will be corrected by implementing the new
 system. Management generally agreed with the recommendations.
 Reference Report No. 2003-10-212

 TIGTA also reviewed the IRS’ use of streamlined critical pay authority. This authority
 allows the IRS to designate up to 40 key positions for which compensation may be
 set at a higher rate than the pay of most Federal Government executives. The IRS
 was not always successful in recruiting qualified outside candidates using critical
 pay authority. In nine cases, the IRS designated positions as critical pay positions but

                                                                                   18
SEMIANNUAL REPORT TO CONGRESS                                                     SEPTEMBER 30, 2003



 subsequently filled them as Senior Executive Service positions. In addition,
 candidates were often identified for positions before they were approved as critical
 pay positions, contrary to IRS procedures. Fifteen critical pay employees were
 identified by name in the memoranda sent to the Commissioner requesting that he
 approve critical pay for the positions. TIGTA recommended additional scrutiny by
 the Secretary of the Treasury, as well as the IRS Oversight Board, to help ensure that
 the authority is used appropriately. IRS disagreed with the recommendation to
 obtain the IRS Oversight Board’s approval on the justification, candidate selection,
 and compensation for all streamlined critical pay positions before they are filled.
 Because the designation of certain positions as critical indicates a high level of
 importance to the success of IRS’ mission, TIGTA continues to believe that the IRS
 Oversight Board should be a part of the approval process for all streamlined critical
 pay positions.
 Report Reference No. 2003-10-116



       INTEGRATING PERFORMANCE AND FINANCIAL
                    MANAGEMENT
 A clean financial audit is a basic prescription for any well-managed organization.
 Without accurate and timely financial information, it is not possible to accomplish
 the President’s Management Agenda to secure the best performance and highest
 measure of accountability for the American people.

 Two IRS Wage and Investment (W&I) Division enforcement programs are the
 document matching and the examination programs. The document-matching
 program, called the Automated Underreporter (AUR) Program, identifies unreported
 income using information returns filed by third parties such as banks and employers.
 The W&I Division’s examination program, including the Earned Income Tax Credit
 (EITC) examinations12, checks compliance in reporting income, deductions, and
 credits on tax returns through correspondence between the taxpayer and the IRS.

 TIGTA conducted reviews focusing on whether the purpose, strategies and plans,
 and management policies are effectively designed to ensure the programs are
 meeting the IRS’ goals of service to all taxpayers through the fair and uniform
 application of the law and improving voluntary compliance. The reviews also
 determined if the programs established long-term outcome goals and measures
 that reflect the programs’ goals.

 The W&I Division has a comprehensive strategic planning process to help ensure it
 manages resources and meets its annual goals and performance levels for the
 Automated Underreporter, Discretionary Examination, and EITC Programs. However,
 there are no established long-term outcome goals and measures that assess the

 12
      The EITC is a major Federal effort to assist the working poor. The IRS has responsibility for administering the
      EITC, which is a refundable credit available to taxpayers who file returns with certain earned income.

                                                                                                               19
SEMIANNUAL REPORT TO CONGRESS                               SEPTEMBER 30, 2003



 Programs’ effects or impact on IRS goals. Without long-term performance measures
 and goals, the IRS cannot be assured that the activities on which these funds were
 spent helped it achieve the Programs’ purpose.

 In addition, neither the AUR nor the EITC Program has sufficient data available to
 establish baselines and long-term goals and measures. The IRS will not be able to
 measure the success of its efforts because the IRS has been unable to provide
 meaningful outcome data necessary to establish long-term performance measures
 and goals. In FY 2003, the IRS was appropriated $32 million for the AUR Program,
 $38 million for Discretionary Examination, and $146 million for the administration of
 the EITC Program. These appropriations were not limited to conducting
 examinations in these programs but for administering each program.

 TIGTA recommended that IRS management finalize long-term goals and related
 measures currently being developed and establish a consistent method to measure
 progress toward long-term goals. Management agreed with the recommendations
 and is taking corrective action.
 Report Reference Nos. 2003-40-139, 2003-40-180, and 2003-40-185




                                                                                  20
SEMIANNUAL REPORT TO CONGRESS                                 SEPTEMBER 30, 2003




      DETECTING AND DETERRING
       FRAUD IN IRS PROGRAMS
           AND OPERATIONS

                         EMPLOYEE INTEGRITY

 IRS employee misconduct undermines the IRS’ ability to improve customer service
 and effectively enforce tax laws and collect taxes owed. TIGTA investigates
 employee misconduct allegations including extortion, bribery, theft, taxpayer
 abuses, false statements, and financial fraud, as well as contractor misconduct and
 fraud. During the reporting period, TIGTA completed 1,058 employee integrity
 investigations.

 As an integral part of its employee integrity program, TIGTA conducts proactive
 integrity initiatives to uncover fraud in IRS operations and to identify internal control
 weaknesses that permitted the fraud to go undetected or unreported. TIGTA’s most
 aggressive proactive initiative is its Unauthorized Access (UNAX) Program designed
 to detect IRS employees who may have improperly accessed and/or disclosed
 confidential taxpayer information. During this reporting period, TIGTA initiated
 233 investigations involving unauthorized access of IRS computer systems.


 The following are examples of Employee Integrity investigations conducted during
 this reporting period.

 IRS Revenue Agent Indicted for Accepting a $250,000 Bribe

 On September 3, 2003, an IRS Revenue Agent was indicted in the Southern District of
 Texas for bribery. The Revenue Agent allegedly solicited a $500,000 bribe from an
 individual in exchange for ensuring that a civil audit the agent was conducting
 would not reach the individual or be converted into a criminal investigation. Further,
 the Revenue Agent allegedly agreed to accept $250,000, with an additional
 $100,000 to be paid at a later date. The Revenue Agent was arrested by TIGTA
 Special Agents following a pre-planned meeting where the Revenue Agent
 received the $250,000 bribe.




                                                                                     21
SEMIANNUAL REPORT TO CONGRESS                                SEPTEMBER 30, 2003




 Former IRS Special Agent Sentenced for Covering Up Association with Prostitutes
 and Theft of His Law Enforcement Vehicle

 On September 8, 2003, a former IRS Special Agent was sentenced in the Central
 District of California for concealing and covering up his association with prostitutes,
 the theft of his law enforcement vehicle, and production of sexually explicit
 depictions of a minor. The former IRS Special Agent filed a false Security Incident
 Report with both TIGTA and the IRS concealing the true facts surrounding the theft of
 his law enforcement vehicle. The former IRS Special Agent also lied under oath on
 numerous occasions to TIGTA investigators about the theft of his law enforcement
 vehicle, his involvement with prostitutes, and his prior misrepresentation of himself as
 a Federal Bureau of Investigation agent. The former IRS Special Agent was
 sentenced to 63 months in federal prison and three years supervised release and
 ordered to pay a $200 special assessment, to undergo sex offender counseling, and
 to register as a sex offender upon release from prison.


 Individual Sentenced for Providing Uncertified Bomb Detection Dogs to IRS

 On September 8, 2003, an individual was sentenced in the Eastern District of Virginia
 for wire fraud and submitting false claims to get business from U.S. Government
 agencies. The individual provided bomb detection dogs that failed explosive
 detection tests on several occasions and made a series of false statements about
 the qualifications of the dogs and the handlers to get business from U.S.
 Government agencies. The individual was ordered to pay more than $708,000 in
 restitution and was sentenced to 78 months imprisonment and three years
 supervised release upon completion of the individual’s prison sentence.


 IRS Contractor Pays $95,000 to the United States Government in Settlement
 Agreement

 On August 6, 2003, an IRS contractor who provided security services for IRS facilities
 reached a settlement agreement with the U.S. Government to pay $95,000 to settle
 allegations of violations of the False Claims Act. The contractor presented claims for
 payment for security services when the contractor knew the corporation was in
 default under the contract and unable to provide the licensed security services
 required under the contract.


 Former IRS Contract Employee Indicted for Stealing Approximately $127,000 from an
 IRS Lockbox Facility

 On September 17, 2003, a former IRS contract employee was indicted in the
 Northern District of Texas for stealing tax remittance checks from the IRS Dallas


                                                                                     22
SEMIANNUAL REPORT TO CONGRESS                                SEPTEMBER 30, 2003



 Lockbox. The individual worked as a contract employee at the IRS Dallas Lockbox,
 where he allegedly stole more than $127,000 in tax remittance funds sent to the IRS.


 Former IRS Employee Sentenced for Preparing Fraudulent Income Tax Returns and
 Unauthorized Access of IRS Computer Records

 On September 29, 2003, a former IRS employee was sentenced in the Eastern District
 of California for fraud and related activity in connection with computers, aiding and
 assisting in the preparation of fraudulent income tax returns, and making and
 subscribing a false income tax return. The former employee accessed, without
 authorization, electronically stored taxpayer records and prepared false income tax
 returns for her and other individuals for a fee. The tax returns were prepared in order
 for the former employee and others to defraud the IRS of monies by falsely claiming
 the Earned Income Tax Credit and receiving refunds. As a result, the U.S.
 Government incurred a loss of over $40,000. The former employee was sentenced
 to four months imprisonment, one year supervised release, $24,276 in restitution, and
 a $450 special assessment fee.


 Former IRS Employee Sentenced for Unauthorized Access and Altering Taxpayer
 Records

 On July 21, 2003, a former IRS employee was sentenced in the District of Kansas with
 intent to enable another person to defraud the United States. The former employee
 accessed, without authority, taxpayer information and abated tax assessments due
 the U.S. in excess of $55,000, thus causing the taxpayer to defraud the U.S. The
 former employee was sentenced to five months in federal prison, two years
 supervised release, and ordered to pay a special assessment of $300.


 Former IRS Employee Indicted for Threatening to Initiate an IRS Audit of Tax Returns
 and for Assaulting and Intimidating a Federal Officer

 On July 17, 2003, a former IRS employee was indicted in the Southern District of New
 York for threatening to initiate an IRS audit of tax returns as a way to seek revenge
 and for leaving a threatening message on the voicemail of the IRS Officer who
 terminated the former employee’s employment. The former IRS employee allegedly
 threatened two New York City Police Officers, who were affecting the former
 employee’s arrest for other charges, that the former employee would initiate an IRS
 audit of their tax returns as a way to seek revenge. The former employee also
 allegedly left a threatening message on the voicemail of the IRS Officer who
 terminated the former employee’s IRS employment and sought to have the IRS
 employee identification confiscated.




                                                                                   23
SEMIANNUAL REPORT TO CONGRESS                                  SEPTEMBER 30, 2003




          EXTERNAL ATTEMPTS TO CORRUPT TAX
                  ADMINISTRATION

 TIGTA also investigates external attempts to corrupt tax administration, including
 violations that impact the IRS, such as impersonation of IRS officials, theft of IRS
 refunds, bribery, and identity theft.

 The following are examples of External Attempts to Corrupt Tax Administration
 investigations conducted during this reporting period.

 Tax Practitioner Sentenced for Scheme to Defraud Taxpayers

 On April 3, 2003, a tax practitioner was sentenced to 27 months incarceration, five
 years supervised release, over $67,000 in restitution and an $1,100 special assessment
 in the Northern District of Florida for obstruction of agency proceedings and mail
 fraud. The individual represented clients before the IRS regarding collection matters.
 The scheme involved the tax practitioner taking monies that clients had provided to
 pay their delinquent taxes, converting them to the practitioner’s own use, and
 mailing altered IRS documents to clients.


 Individual Arrested for Using the IRS as a Tool of Retaliation Against Public Officials

 On April 7, 2003, an individual was arrested in Minnesota for using the IRS as a tool of
 retaliation against certain public officials. The individual allegedly filed false
 Suspicious Activity Reports and several false IRS Reports of Cash Payments Over
 $10,000 Received in a Trade or Business (Form 8300) in retaliation against local public
 officials. Subsequently, IRS notices were sent to the victims, including circuit court
 and federal judges, directing them to provide additional information regarding the
 cash transactions.


 Individual Arrested for Submitting False Claims and Declarations to the IRS

 On April 30, 2003, an individual was arrested in New York State for submitting false
 claims and declarations to the IRS. The individual allegedly submitted false IRS
 Powers of Attorney and Declaration of Representative (Form 2848), claiming to be
 an attorney who was a member in good standing of the bar of the highest court of
 New York State, when he knew that he was not. The individual also prepared and
 filed false amended individual income tax returns claiming tax refunds.




                                                                                      24
SEMIANNUAL REPORT TO CONGRESS                                 SEPTEMBER 30, 2003




 Individual Pleads Guilty to Identity Theft

 On July 15, 2003, an individual pleaded guilty in the District of Nevada to identity
 theft. After receiving notices from the IRS, a taxpayer complained to TIGTA that an
 unidentified individual allegedly unlawfully used his name, date of birth, and Social
 Security Number (SSN). An investigation disclosed that while seeking employment,
 the individual, purporting to be the taxpayer, submitted Employee’s Withholding
 Allowance Certificates (Form W-4) to two Nevada businesses. Subsequently,
 approximately $46,000 in earnings was reported to the IRS under the taxpayer’s SSN,
 and a demand for payment notice in excess of $11,000 was sent to the victim
 taxpayer from the IRS.

 Individual Indicted for Altering and Transmitting Fictitious IRS Levy Release
 Documents

 On July 23, 2003, an individual was indicted in the District of Delaware for faxing
 altered and fictitious IRS release of levy documents. The individual allegedly altered
 authentic IRS release of levy documents reflecting a partial release of levy on her
 husband’s wages and faxed the fictitious documents to her husband’s employer in
 order to reflect a full release of levy placed on her husband’s earnings fraudulently.




                                                                                  25
SEMIANNUAL REPORT TO CONGRESS                                 SEPTEMBER 30, 2003




                     CONGRESSIONAL
                       TESTIMONY
 In addition to TIGTA’s audit and investigative work and as part of keeping key
 stakeholders informed of TIGTA’s oversight of IRS, the Deputy Inspector General (IG)
 for Audit testified before Congress on four occasions during this reporting period.

 On April 1, 2003, the Deputy IG for Audit testified before the United States Senate
 Finance Committee on “Tax Scams and Schemes.” The purpose of the hearing was
 to discuss the efforts in assessing the IRS’ monitoring of electronic return providers or
 originators and in investigating individuals who corruptly interfere with this aspect of
 the tax administration system.

 On May 13, 2003, the Deputy IG for Audit testified before the United States House of
 Representatives Committee on Ways and Means, Subcommittee on Oversight. The
 topic of the hearing focused on “The Use of Private Collection Agencies to Improve
 IRS Debt Collection.”

 On May 20, 2003, the Deputy IG for Audit testified before the Committees of the
 United States Senate and United States House of Representatives on “The Strategic
 Plans and Budget of the IRS” as required by the IRS Restructuring and Reform Act of
 1998. TIGTA concluded that it will continue its efforts to provide reliable and
 objective assessments of the IRS’ progress in balancing compliance and customer
 service, and to investigate employee misconduct or external threats that jeopardize
 the integrity, efficiency, and effectiveness of the nation’s tax administration system.

 On July 9, 2003, the Deputy IG for Audit testified before the United States House of
 Representatives Committee on the Budget, regarding "Waste, Fraud and Abuse in
 IRS Programs". TIGTA shared significant problems and challenges that confront the
 new Commissioner and IRS senior management. TIGTA concluded that it will
 continue its efforts to provide reliable and objective reviews and assessments of IRS
 programs and operations. It is TIGTA’s intent not only to identify waste, fraud, and
 abuse in IRS programs, but also to propose to IRS management solutions that
 address the underlying causes of the problems.




                                                                                     26
SEMIANNUAL REPORT TO CONGRESS                                 SEPTEMBER 30, 2003




   AWARDS AND SPECIAL ACHIEVEMENTS




 Auditor John P. Ojeda Receives Special Community Recognition

 John P. Ojeda, TIGTA Office of Audit, Wage and Investment Income Programs, had
 a new state-of-the-art Junior High School in Austin, Texas named in his honor. The
 school was named the John P. Ojeda Junior High School and opened on
 August 18, 2003. Mr. Ojeda was recognized for his service to the Austin community
 for nineteen years, nine of which were as a school board trustee on the local school
 board. Mr. Ojeda received this honor because of his exceptional contributions to
 public education, his model of excellence for the students of the district, his
 demonstrated leadership and service, and his interest in and meritorious contribution
 to education.

 TIGTA Receives PCIE Awards

 TIGTA was recognized at the President’s Council on Integrity and
 Efficiency/Executive Council on Integrity and Efficiency (PCIE/ECIE) awards
 ceremony October 16, 2003 with two Awards for Excellence. One award went to
 Senior Auditor John L. Hawkins from Kansas City, Missouri, for his outstanding work in
 assessing the IRS’ controls over the access to, disclosure of, and use of social security
 numbers by third parties. The second award went to the Technical and Forensic
 Support Division for outstanding achievement in technical and forensic investigative
 support during the investigation of telemarketers who posed as representatives from
 the IRS in order to obtain money fraudulently from elderly citizens across the country.

 TIGTA Receives Telework Award

 The TIGTA Office of Information Technology (OIT) completed the implementation
 of a new, state-of-the-art telecommunications network in May 2003. This network

                                                                                    27
SEMIANNUAL REPORT TO CONGRESS                                     SEPTEMBER 30, 2003



 underpins the Virtual Resource Solution (VRS) Telework program for which TIGTA
 was recently recognized with the 2003 Commuter Connections Employer
 Recognition Award (see photograph below). Over 90 percent of TIGTA employees
 currently participate in the VRS program. Over 35 percent of TIGTA employees
 work out of the office at least two days each week as part of the VRS program.
 Employees can access the TIGTA network via any Internet connection or dial up
 connection because of the technology investment made in the TIGTA
 telecommunications network.




                        2003 Commuter Connections Employer Recognition Award



 Automated Clearance Verification System Developed

 Over the past year, the Federal personnel security community has faced
 extraordinary challenges protecting homeland security. Many agencies are adding
 staff and/or reassessing security clearance requirements and, as a result, the
 demand for background investigations has risen dramatically. The Office of
 Personnel Management (OPM) Investigations Service is committed to providing
 quality investigations in a timely, cost effective manner. Because of the largely
 unpredicted workload increase, however, OPM's ability to meet the timeliness
 standards has declined. The Clearance Verification System is an e-Clearance
 initiative under the President’s Management Agenda and provides all current
 Departmental requirements as they relate to the processes involving investigation
 posting, maintenance, and reporting.

 In order to create an investigation tracking system for TIGTA that is compliant with
 regulations and can be readily integrated with the e-Clearance initiative, experts in
 all aspects are required. TIGTA's Security team represented the organization at the
 initial e-Clearance meeting and follow up meetings. They digested the
 requirements, translated them into computer terms, and then worked closely with
 Bureau of Public Debt programmers to integrate and implement the program
 successfully. After several efforts at clarification, testing, verification, and validation,
 TIGTA has produced a zero defect file to the Treasury Department before the due

                                                                                        28
SEMIANNUAL REPORT TO CONGRESS                                         SEPTEMBER 30, 2003



 date. As part of the Memorandum of Understanding with OPM, Treasury is
 required to revalidate its security clearance information every six months. This
 well-documented and highly automated e-Clearance system allows for a
 consistently repeatable process for TIGTA.


 Electronic Reading Room Established for Public Access to Documents

 The TIGTA Web Development Team created and introduced an electronic reading
 room providing public access to TIGTA documents pursuant to the Freedom of
 Information Act (FOIA), 5 U.S.C. § 552. The web developers worked closely with
 TIGTA’s Chief Counsel staff to ensure that all requirements for posting documents to
 the public site were met and/or exceeded. TIGTA Electronic Freedom of
 Information Act (EFOIA) documents are on the Treasury Internet site at
 http://www.treas.gov/tigta/foia/ and on a stand-alone computer available to the
 public in TIGTA's national headquarters in Washington, D.C. The Web Team created
 policies to ensure that this public site remains current and continues to meet all legal
 requirements for publicly accessible documents.


 Assistance to Foreign Tax Administrators

 On several occasions, TIGTA supported the Department of the Treasury in assisting
 foreign tax administrators with the development of their inspector general functions.
 This assistance included detailing individuals to Indonesia, Paraguay, Ecuador,
 Honduras, and Georgia.




             In its continuing efforts to assist other countries in the implementation of
             Office of Inspectors General, TIGTA recently visited with officials from the
             government of Georgia. Shown above (left to right) are Pamela Gardiner,
             Deputy Inspector General for Audit, Eduard Shevardnadze, President of
             Georgia, and Robert Cortesi, Office of Tax Assistance.




                                                                                            29
SEMIANNUAL REPORT TO CONGRESS                                                      SEPTEMBER 30, 2003



                                APPENDIX I – AUDIT STATISTICAL REPORTS

                                    AUDIT REPORTS WITH QUESTIONED COSTS

 Two audit reports with questioned costs were issued during this semiannual reporting period.1
 The term “questioned cost” means a cost that is questioned because of: (1) an alleged violation of a
 provision of a law, regulation, contract, or other requirement governing the expenditure of funds; (2) a
 finding that, at the time of the audit, such cost is not supported by adequate documentation
 (“unsupported cost”); or (3) a finding that expenditure of funds for the intended purpose is unnecessary or
 unreasonable. The term “disallowed cost” means a questioned cost that management, in a
 management decision, has sustained or agreed should not be charged to the government.

       REPORTS WITH QUESTIONED COSTS                                  QUESTIONED
             (4/1/03 – 9/30/03)                   NUMBER OF              COSTS2            UNSUPPORTED COSTS
             REPORT CATEGORY                       REPORTS          (IN THOUSANDS)           (IN THOUSANDS)

     1. For which no management decision
     had been made by the beginning of
     the reporting period                                     2                 $ 5,273                    $0



     2. Which were issued during the
     reporting period                                         2                    $ 39                  $ 38




     3. Subtotals (Item 1 plus Item 2)                        4                 $ 5,312                  $ 38

     4. For which a management decision
     was made during the reporting period
         - Dollar value of disallowed costs                   2                 $ 5,3113                  $0
         - Dollar value of costs not disallowed               2                  $ 4,643                 $ 38


     5. For which no management decision
     had been made by the end of the
     reporting period (Item 3 minus Item 4)                   1                     $1                    $0


     6. For which no management decision
     was made within six months of report
     issuance                                                 0                     $0                    $0

 1 See Appendix IV for identification of audit reports involved.
 2 “Questioned Costs” include “Unsupported Costs.”
 3 IRS management disallowed only part of the questioned cost for one report.




                                              PRIOR PERIOD REPORTS

 During this reporting period, the IRS did not provide TIGTA with the value of questioned costs for any
 reports issued before April 1, 2003, for which the amount of questioned costs could not be determined
 at the time the reports were issued.




                                                                                                          30
SEMIANNUAL REPORT TO CONGRESS                                                       SEPTEMBER 30, 2003



                     REPORTS WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

 Nine reports with recommendations that funds be put to better use were issued during this semiannual
 reporting period.1 The term “recommendation that funds be put to better use” means a
 recommendation that funds could be used more efficiently if management took actions to implement
 and complete the recommendation, including (1) reductions in outlays; (2) deobligations of funds from
 programs or operations; (3) costs not incurred by implementing recommended improvements related to
 operations; (4) avoidance of unnecessary expenditures noted in pre-award reviews of contract
 agreements; preventing erroneous payment of the following refundable credits: Earned Income Tax
 Credit and Child Tax Credit; or (5) any other savings which are specifically identified. The term
 “management decision” means the evaluation by management of the findings and recommendations
 included in an audit report and the issuance of a final decision concerning its response to such findings
 and recommendations, including actions concluded to be necessary.

 1   See Appendix IV for identification of audit reports involved.




      REPORTS WITH RECOMMENDATIONS THAT FUNDS BE
                   PUT TO BETTER USE                                 NUMBER
                    (4/1/03 – 9/30/03)                                 OF                   AMOUNT
                   REPORT CATEGORY                                   REPORTS            (IN THOUSANDS)

     1. For which no management decision has been
     made by the beginning of the reporting period                             1                    $ 2,240



     2. Which were issued during the reporting period                          9                $ 1,912,309


     3. Subtotals (Item 1 plus Item 2)                                         10               $ 1,914,549

     4. For which a management decision was made
     during the reporting period

     Dollar value of recommendations that were agreed
     to by management
     - Based on proposed management action                                     5                    $ 4,348
     - Based on proposed legislative action                                    0                         $0
     Dollar value of recommendations that were not
     agreed to by management                                                   3                $ 1,865,861

     5. For which no management decision has been
     made by the end of the reporting period
     (Item 3 minus Item 4)                                                     2                   $ 44,340


     6. For which no management decision was made
     within six months of issuance                                             1                    $ 2,240




                                                                                                         31
SEMIANNUAL REPORT TO CONGRESS                                               SEPTEMBER 30, 2003



                REPORTS WITH ADDITIONAL QUANTIFIABLE IMPACT ON TAX ADMINISTRATION

 In addition to questioned costs and funds put to better use, the Office of Audit has identified additional
 measures that demonstrate the value of audit recommendations on tax administration and business
 operations. These issues are of interest to the IRS and Treasury executives, the Congress, and the taxpaying
 public, and are expressed in quantifiable terms to provide further insights to the value and potential impact
 of the Office of Audit’s products and services. Including this information also advances adherence to the
 intent and spirit of the Government Performance and Results Act (GPRA).

 Definitions of these additional measures are:

 Taxpayer Rights and Entitlements at Risk: The protection of due process (rights) that is granted to taxpayers
 by law, regulation, or IRS policies and procedures. These rights most commonly arise in the performance of
 filing tax returns, paying delinquent taxes, and examining the accuracy of tax liabilities. The acceptance of
 claims for and issuance of refunds (entitlements) are also included in this category, relating to instances
 when taxpayers have a legitimate assertion to overpayments of tax.

 Reduction of Burden on Taxpayers: Decreases by individuals or businesses in the need for, frequency of, or
 time spent on contacts, record keeping, preparation, or costs to comply with tax laws, regulations, and IRS
 policies and procedures.

 Increased Revenue: Assessment or collection of additional taxes.

 Revenue Protection: Proper denial of claims for refund, including recommendations that prevent erroneous
 refunds or efforts to defraud the tax system.

 Taxpayer Privacy and Security: Protection of taxpayer financial and account information (privacy).
 Processes and programs that provide protection of tax administration, account information, and
 organizational assets (security).

 Inefficient Use of Resources: Value of efficiencies gained from recommendations to reduce cost while
 maintaining or improving the effectiveness of specific programs; resources saved would be available for
 other IRS programs. Also, the value of internal control weaknesses that resulted in an unrecoverable
 expenditure of funds with no tangible or useful benefit in return.

 Protection of Resources: Safeguarding human and capital assets, used by or in the custody of the
 organization, from inadvertent or malicious injury, theft, destruction, loss, misuse, overpayment, or
 degradation. This measure will often be expressed as a value of the entity or program affected by the
 issue(s) described in the audit report.

 Reliability of Management Information: Ensuring the accuracy, validity, relevance, and integrity of data,
 including the sources of data and the applications and processing thereof, used by the organization to
 plan, monitor, and report on its financial and operational activities. This measure will often be expressed
 as an absolute value (i.e., without regard to whether a number is positive or negative) of overstatements
 or understatements of amounts recorded on the organization’s documents or systems.

 The number of taxpayer accounts and dollar values shown in the following chart were derived from
 analyses of historical data, and are thus considered potential barometers of the impact of audit
 recommendations. Actual results will vary depending on the timing and extent of management’s
 implementation of the corresponding corrective actions, and the number of accounts or subsequent
 business activities impacted from the dates of implementation. Also, a report may have issues that impact
 more than one outcome measure category.




                                                                                                        32
SEMIANNUAL REPORT TO CONGRESS                                                           SEPTEMBER 30, 2003



              REPORTS WITH ADDITIONAL QUANTIFIABLE IMPACT ON TAX ADMINISTRATION (CONTINUED)


     REPORTS WITH ADDITIONAL
    QUANTIFIABLE IMPACT ON TAX
          ADMINISTRATION                   NUMBER OF        NUMBER OF         NUMBER
         (4/1/03 – 9/30/03)                REPORTS IN       TAXPAYER              OF         DOLLAR VALUE
    OUTCOME MEASURE CATEGORY               CATEGORY1        ACCOUNTS           HOURS         (IN THOUSANDS)        OTHER7

    Taxpayer Rights and Entitlements                                      2                                               2, 8

    at Risk                                           16        1,593,597                         $ 8,008,619

    Reduction of Burden on                                                3                                                 9

    Taxpayers                                         11       38,483,489                           $ 874,900
                                                                                                              4

    Increased Revenue                                  7               126                         $ 7,208,103


    Revenue Protection                                 2                 4                             $ 1,275


    Taxpayer Privacy and Security                      0
                                                                                                              5            10

    Inefficient Use of Resources                       7                                              $ 47,160
                                                                                                              6

    Protection of Resources                            3                                               $ 3,523
                                                                                                                           11
    Reliability of Management
    Information                                        4               187

1  See Appendix IV for identification of audit reports involved.
2  There is a possibility of duplication of taxpayers in each of four reports (Reference Nos. 2003-10-156, 2003-40-193,
2003-10-218, 2003-10-164) because more than one finding may have been projected to the same population.
3 In one report (Reference No. 2003-10-187) IRS management did not agree that 16.7 million taxpayers would benefit from

reduced burden, stating that their analysis would impact approximately 1.9 million, of which 1.7 million could only be
addressed through a legislative change.
4 In one report (Reference No. 2003-30-195) IRS management did not agree that the prior year’s tax liability was a conclusive

predictor of the $713,000 of increased revenue.
5 In two reports (Reference Nos. 2003-20-109 and 2003-10-170) IRS management did not agree with the criteria used to

calculate the reported benefits of $41.2 million.
6 In one report (Reference No. 2003-10-194) IRS management understood the methodology of assessing risk, but believes that

the reported weakness of $310,000 was overstated.
7 Some reports contained “Other” quantifiable impacts beside the number of taxpayer accounts, number of hours, and

dollar value. These outcome measures are described in the footnotes, below.
8 Other measures of taxpayer rights and entitlements consist of 321 improper Illegal Tax Protestor designations in IRS files and

2,741 FOIA, PA and I.R.C. §6103 requests that were improperly withheld or not timely provided. In one report (Reference No.
2003-40-098) IRS management disagreed, stating that the case files notations are not improper designations within the
meaning of the law.
9 Other measure of taxpayer burden consists of one publication not updated to reflect the new tuition and fee deduction

included in the Economic Growth and Tax Reconciliation Act.
10 Other measures of inefficient use of resources consist of approximately 139 staff days that would be available for other

priority work. In two reports (Reference Nos. 2003-10-201 and 2003-10-200) IRS management disagreed with the proposed
benefits of 129 staff years.
11 Other measure of reliability of information consists of 110 Internal Revenue Manual Sections with prohibited references to

Illegal Tax Protestor designations.




                                                                                                                        33
SEMIANNUAL REPORT TO CONGRESS                                                       SEPTEMBER 30, 2003



                                  APPENDIX II – OFFICE OF INVESTIGATIONS -
                                            STATISTICAL REPORTS

                         INVESTIGATIVE RESULTS: APRIL 1, 2003 – SEPTEMBER 30, 2003




                                         INVESTIGATIONS OPENED AND CLOSED

       Total Investigations Opened                                                                2249


       Total Investigations Closed                                                                2595




                                              FINANCIAL ACCOMPLISHMENTS

      Embezzlement/Theft Funds Recovered                                                     $3,153,794


      Court Ordered Fines, Penalties and Restitution                                        $14,492,545


      Out-of-Court Settlements                                                                      $0




                                    STATUS OF CLOSED CRIMINAL INVESTIGATIONS
                                                                           NON-
                                                       EMPLOYEE          EMPLOYEE         TOTAL

      Criminal Referrals1

      Referred – Accepted for
      Prosecution                                                   31         198                 229


      Referred – Declined for Prosecution                          416         486                 902

      Referred - Pending Prosecution
      Decision                                                      20          89                 109


      Total Criminal Referrals                                     467         773                1240


      No Referrals                                                 589         787                1376

  1   Criminal referrals include both federal and state dispositions.




                                                                                                          34
SEMIANNUAL REPORT TO CONGRESS                                                             SEPTEMBER 30, 2003




                                              CRIMINAL DISPOSITIONS1

                                                     EMPLOYEE             NON-EMPLOYEE                  TOTAL

     Guilty                                                        23                      158                       181

     Nolo-Contendere                                                1                         1                       2

     Pre-trial Diversion                                            3                         5                       8

     Deferred Prosecution2                                          2                         3                       5

     Not Guilty                                                     0                         2                       2

     Dismissed3                                                     1                        20                      21

              TOTAL CRIMINAL DISPOSITIONS                          30                      189                       219

 1 Final criminal dispositions during the reporting period. This data may pertain to investigations referred criminally in
 prior reporting periods and do not necessarily relate to the investigations referred criminally in the Status of Closed
 Criminal Investigations table.
 2 Generally in a deferred prosecution, the defendant accepts responsibility for his/her actions, and complies with

 certain conditions imposed by the court. Upon defendant’s completion of the conditions, the court dismisses the
 case. If the defendant fails to fully comply, the court reinstates prosecution of the charge.
 3 Court dismissed charges.




                      ADMINISTRATIVE DISPOSITION ON CLOSED TIGTA INVESTIGATIONS1

     Removed, Terminated or Other                                                                                  145

     Suspended/Reduction in Grade                                                                                    91

     Oral or Written Reprimand/Admonishment                                                                        143

     Closed – No Action Taken                                                                                      286

     Clearance Letter Issued                                                                                       181

     Employee Resigned Prior to Adjudication                                                                       100

                                                   TOTAL ADMINISTRATIVE DISPOSITIONS                               946

 1 Final administrative dispositions during the reporting period. This data may pertain to investigations referred

 administratively in prior reporting periods and does not necessarily relate to the investigations closed in the
 Investigations Opened and Closed table.




                                                                                                                             35
SEMIANNUAL REPORT TO CONGRESS                                                       SEPTEMBER 30, 2003




 The following tables summarize the number of complaints received by TIGTA and the status of
 the complaints.




                                  COMPLAINTS/ALLEGATIONS RECEIVED BY TIGTA

 Complaints Against IRS Employees                                                                             2352


 Complaints Against Non-Employees                                                                             1682


 Number of Complaints/Allegations                                                                             4034




                            STATUS OF COMPLAINTS/ALLEGATIONS RECEIVED BY TIGTA

 Investigations Initiated                                                                                     1644


 In Process Within TIGTA1                                                                                       20


 Referred to the IRS for Action                                                                                116


 Referred to the IRS for Information Only                                                                     1185


 Referred to a Non-IRS Entity2                                                                                  17


 Closed With No Referral                                                                                       747


 Closed With All Actions Completed                                                                             305


                                                  TOTAL COMPLAINTS                                            4034

 1   Complaints for which final determination had not been made at the end of the reporting period.
 2   A non-IRS entity includes other law enforcement entities or federal agencies.

 Note: IRS made 71 referrals to TIGTA that would more appropriately be handled by IRS and, therefore, were returned
 to IRS. These are not included in the total complaints shown above.




                                                                                                                 36
       SEMIANNUAL REPORT TO CONGRESS                                                     SEPTEMBER 30, 2003



                                      ALLEGATIONS OF MISCONDUCT AGAINST IRS EMPLOYEES

The following tables contain information exactly as provided by the IRS to TIGTA and consist of IRS employee
misconduct reports from the IRS Automated Labor and Employee Relations Tracking System (ALERTS). Also, data
concerning substantiated §1203 allegations are included. IRS management conducted the inquiries into the
cases reflected in these tables.

                          REPORT OF EMPLOYEE MISCONDUCT FOR THE PERIOD 4/01/03 – 9/30/03
                                         SUMMARY BY DISPOSITION GROUPS
                                                TIGTA    ADMINISTRA- EMPLOYEE BACKGROUND
                                               INVESTI-      TIVE     TAX MATTER       INVESTI-
                     DISPOSITION               GATIONS     CASES1        CASES2        GATIONS3                       TOTAL
    Removal                                                   54             121                   8             1              184
    Separation of Probationary Employees                       6             386               16               37              445
    Separation of Temporary Employees                          0               10                  2            15              27
    Resignation/Retirement                                    84             141               57               37              319
    Suspensions                                               85             172               45                9              311
    Reprimands                                                88             303              350               26              767
    Counseling                                                45             314             1044             170           1573
    Alternative Discipline                                    12               71              19                2              104
    Clearance                                                162             109                   8             9              288
    Closed Without Action                                    352             347              301             299           1299
    Forwarded to TIGTA                                         0               23                  0             0              23
                                              TOTAL         888             1997             1850             605           5340

1 Administrative - Any matter involving an employee in which management conducted an inquiry into alleged misconduct.
2 Employee Tax Matter - Any conduct matter that becomes a matter of official interest involving an employee's tax compliance.
3 This category has not been reported in previous TIGTA Semiannual Reports and represents any matter involving a National

Background Investigation Center (NBIC) investigation into an IRS employee’s background that is referred to IRS management for
appropriate action.

                             REPORT OF EMPLOYEE MISCONDUCT FOR THE PERIOD 4/1/03 – 9/30/03
                                                 NATIONAL SUMMARY
                                                                        CASES CLOSED
                                   OPENING CONDUCT CASES CONDUCT                      NON-CONDUCT CLOSING
              CASE TYPE           INVENTORY     RECEIVED      ISSUES    DUPLICATES       CASES    INVENTORY
    TIGTA Investigations – ROI (I)1          763              799           (888)            (6)                (1)             667

    Administrative Case (A)2                 721             1992          (1997)          (13)                 (7)             696
    Employee Tax Compliance
    Case (C)3                                808             2650          (1850)         (125)                 (0)         1483
    Background Investigations
    (E)4                                     286              593           (605)            (7)                (0)             267
                              TOTAL         2578             6034         (5340)          (151)                (8)          3113

1 TIGTA Investigations (ROI) – Any matter involving an employee in which TIGTA conducted an investigation into alleged misconduct

and referred a Report of Investigation (ROI) to IRS for appropriate action.
2 Administrative Case – Any matter involving an employee in which management conducted an inquiry into alleged misconduct.
3 Employee Tax Compliance Case – Any conduct matter that is identified by the Employee Tax Compliance program which becomes

a matter of official interest.
4 This category has not been reported in previous TIGTA Semiannual Reports and represents any matter involving a National

Background Investigation Center (NBIC) investigation into an IRS employee’s background that is referred to IRS management for
appropriate action.


                                                                                                                       37
 SEMIANNUAL REPORT TO CONGRESS                                                          SEPTEMBER 30, 2003




                      IRS SUMMARY OF SUBSTANTIATED § 1203 INQUIRIES RECORDED IN ALERTS
                                       FOR THE PERIOD 4/1/03 – 9/30/03


                                                                      REMOVED                             IN
     § 1203                          RESIGNED/       PROBATION/       ON OTHER        PENALTY         PERSONNEL
   VIOLATION         REMOVALS         RETIRED        SEPARATION       GROUNDS         MITIGATED        PROCESS         TOTAL


Seizure Without
Approval                        0                1                0              0                0                0         1


False Statement
Under Oath                      0                0                0              0                0                0         0

Constitutional &
Civil Rights
Issues                          0                0                0              0                0                0         0

Falsifying or
Destroying
Records                         0                0                0              0                0                3         3


Assault or
Battery                         0                0                0              0                0                0         0


Retaliate or
Harass                          0                0                0              0                0                0         0



Misuse of 6103                  0                0                0              0                0                0         0

Failure to File
Federal Tax
Return                          2                6                4              1              15               53         81

Understatement
of Federal Tax
Liability                       7                4                0              1               2               31         45

Threat to Audit
for Personal
Gain                            0                0                0              0                0                0         0



             TOTAL             9                11                4              2              17               87         130

Note: The cases reported as “Removals” and “Penalty Mitigated” do not reflect the results of any third party appeal.




                                                                                                                       38
   SEMIANNUAL REPORT TO CONGRESS                                                     SEPTEMBER 30, 2003




                                  APPENDIX III – STATISTICAL REPORTS – OTHERS
                    AUDIT REPORTS WITH SIGNIFICANT UNIMPLEMENTED CORRECTIVE ACTIONS

The Inspector General Act of 1978 requires identification of significant recommendations described in previous
semiannual reports on which corrective actions have not been completed. The following list is based on
information from the IRS Office of Management Control’s automated tracking system maintained by Treasury
management officials.

                                        PROJECTED                    REPORT TITLE AND RECOMMENDATION SUMMARY
   REFERENCE                            COMPLETION               (F = FINDING NUMBER, R = RECOMMENDATION NUMBER,
    NUMBER            ISSUED              DATE                                    P = PLAN NUMBER)
    093602           April 1999                        The Internal Revenue Service Needs To Improve Treatment of
                                                       Taxpayers During Office Audits

                                         11/15/03      F-1, R-3, P-2. Require a separation of duties among auditors who
                                                       identify Midwest Automated Compliance System (MACS) returns with
                                                       potential tax changes, auditors who select MACS returns to be
                                                       audited, and auditors who conduct the examinations.
                                         10/01/05      F-1, R-4, P-2. Ensure that all MACS data discs forwarded from the
                                                       MACS Development Center to district offices are properly accounted
                                                       for and secured.
                                         10/15/03      F-2, R-4, P-1. Clarify the Internal Revenue Manual to provide specific
                                                       guidance for conducting correspondence audits in district office
                                                       settings.
   1999-20-063      August 1999                        The General Controls Environment Over the Internal Revenue Service’s
                                                       Unisys 2200 Systems Can Be Improved

                                         02/15/04      F-2, R-1, P-1. Standardize control settings for files common to the Unisys
                                                       2200 production mainframes.
   2000-30-015    December 1999                        Consolidated Report on Opportunities for the Internal Revenue Service
                                                       to Improve Service to Business Taxpayers

                                         01/01/04      F-2, R-1, P-1. Expand the current Federal Tax Deposits alert
                                                       reengineering effort to re-evaluate the cost effectiveness of the
                                                       Program.
   2000-30-059      March 2000                         The Internal Revenue Service Can Improve the Estate Tax Collection
                                                       Process

                                         01/15/05      F-2, R-2, P-1. Develop procedures to periodically reconcile tax liens on
                                                       the Automated Lien System (ALS) with information shown on the
                                                       taxpayer accounts.
                                         01/15/05      F-2, R-3, P-1. Clarify procedures to employees that all estate tax liens
                                                       should be recorded on the ALS.
                                         03/15/04      F-3, R-4, P-1. Coordinate to develop a procedure to identify accounts
                                                       with multiple assessments and collection statute dates to ensure
                                                       partial abatements occur when the earliest Collection Statute
                                                       Expiration Date is reached.
   2000-20-094       June 2000                         A Comprehensive Program for Preventing and Detecting Computer
                                                       Viruses Is Needed

                                         01/15/04      F-2, R-1, P-1. Develop and implement IRS-wide procedures detailing
                                                       the frequency and steps to be followed for reliably updating anti-virus
                                                       software on both networked and portable notebook computers.
                                         01/02/04      F-2, R-2, P-1. Establish controls for ensuring all updates have been
                                                       successfully accomplished.
                                         01/01/04      F-3, R-1, P-1. Develop a system for gathering information to help
                                                       analyze and monitor the effectiveness of the program’s virus
                                                       detection and prevention activities.



                                                                                                                      39
SEMIANNUAL REPORT TO CONGRESS                                                 SEPTEMBER 30, 2003



                               PROJECTED                    REPORT TITLE AND RECOMMENDATION SUMMARY
REFERENCE                      COMPLETION               (F = FINDING NUMBER, R = RECOMMENDATION NUMBER,
  NUMBER         ISSUED          DATE                                    P = PLAN NUMBER)
2000-30-120    August 2000                     Expanding the Electronic Tax Law Assistance Program

                                 04/15/04      F-1, R-1, P-1. To meet its Electronic Tax Administration goals, the IRS
                                               needs to redesign the Electronic Tax Law Assistance program to
                                               leverage technology that will provide enhanced access to tax
                                               information, maximize efficiency, and improve electronic customer
                                               service.
2000-30-130   September 2000                   Opportunities Exist to Enhance the International Field Assistance
                                               Specialization Program

                                 04/15/04      F-2, R-1, P-1. Improve the management information system by linking
                                               the International Field Assistance Specialization Program indicator to
                                               specific issues listed in the International Case Management System.
2000-30-154   September 2000                   Significant Improvements Are Needed in Processing Gift Tax Payments
                                               and Associated Extensions to File

                                 01/01/04      F-1, R-1, P-1. Require that all balance due notices generated for gift
                                               tax accounts be reviewed. Tax examiners should be instructed to
                                               review the taxpayers’ corresponding individual income tax and gift
                                               tax accounts to determine if the taxpayers’ gift tax payments and
                                               extensions were correctly processed.
2000-30-162   September 2000                   The Internal Revenue Service Needs to Better Address Bankruptcy
                                               Automatic Stay Violations

                                 11/15/03      F-1, R-2, P-1. Provide additional computer programming
                                               enhancements to improve the value of litigation transcripts.
                               P-1: 11/15/03   F-2, R-1, P-1, P-2. Request that the Automated Insolvency System be
                               P-2: 11/15/03   reprogrammed so that the actual receipt date of the case can be
                                               input into the system to provide management with more accurate
                                               data on timeliness of input of new case information.
                               P-1: 11/15/03   F-2, R-2, P-1, P-2. Ensure that all employees review the Potentially
                               P-2: 11/15/03   Invalid Taxpayer report and resolve all cases promptly to ensure timely
                                               posting of the bankruptcy to the taxpayer’s account.
2001-30-014   November 2000                    The Internal Revenue Service Does Not Effectively Use the Trust Fund
                                               Recovery Penalty as a Collection Enforcement Tool

                                 12/15/03      F-1, R-5, P-1. Make programming changes to the Automated Trust
                                               Fund Recovery System to ensure that delinquent tax returns are
                                               addressed when making trust fund recovery penalty calculations.
2001-10-027    January 2001                    Improved Case Monitoring and Taxpayer Awareness Activities Can
                                               Enhance the Effectiveness of the Tax Practitioner Disciplinary
                                               Proceedings Program

                                 03/31/03      F-1, R-1, P-1. Upgrade the automated case management system to
                                               provide more timely and accurate data on case activities and the
                                               use of program resources.
2001-20-043    February 2001                   Electronic Signature Initiatives Could Be Better Defined and Evaluated

                                 10/15/03      F-1, R-1, P-1. Finalize IRS requirements for the use of Personal
                                               Identification Numbers as alternative signatures for electronically filed
                                               returns based on evolving guidance and the draft IRS authentication
                                               security policy and implementation guide.
                                 11/15/03      F-1, R-2, P-1. Ensure that all operational alternative signature initiatives
                                               comply with the requirements.




                                                                                                                40
SEMIANNUAL REPORT TO CONGRESS                                               SEPTEMBER 30, 2003



                              PROJECTED                    REPORT TITLE AND RECOMMENDATION SUMMARY
REFERENCE                     COMPLETION               (F = FINDING NUMBER, R = RECOMMENDATION NUMBER,
  NUMBER         ISSUED         DATE                                    P = PLAN NUMBER)
2001-30-052    March 2001                     Program Improvements Are Needed to Encourage Taxpayer
                                              Compliance in Reporting Foreign Sourced Income

                                01/01/04      F-1, R-1, P-1. Ensure the prior recommendations are implemented.
                                              Establishing a formal program with goals, objectives, processes and
                                              measure could help ensure that sufficient management attention is
                                              devoted to improving the use of the Routine Exchange of Information
                                              Program for compliance.
                                01/01/04      F-2, R-1, P-1. Identify the highest risk foreign sourced income
                                              documents and use them to coordinate with tax treaty partners to
                                              positively identify the U.S. taxpayers involved.
                              P-1: 01/01/07   F-3, R-1, P-1, P-2. Improve systems that process data the IRS receives
                              P-2: 01/01/07   on foreign sourced income.
2001-30-099     June 2001                     Management Advisory Report: The Internal Revenue Service Could
                                              Reduce the Number of Business Tax Returns Destroyed Because of
                                              Missing Information

                              P-2: 02/15/04   F-1, R-1, P-2, P-3. Make necessary modifications to tax forms and
                              P-3: 02/15/04   instructions to ensure taxpayers understand that their names,
                                              addresses, and taxpayer identification numbers are required on both
                                              their tax forms and payment vouchers.
2001-20-146    August 2001                    The Internal Revenue Service Is Making Progress, But Is Not Yet in Full
                                              Compliance With the Requirements of the Clinger-Cohen Act

                                01/15/04      F-1, R-1, P-1. Prepare an overall strategy, plan and schedule to bring
                                              the IRS in full compliance with the Clinger-Cohen Act.
2002-30-042   December 2001                   The Internal Revenue Service Has Made Some Progress, but Significant
                                              Improvements Are Still Needed to Reduce Errors in Manual Interest
                                              Calculations

                                10/15/03      F-1, R-2, P-1. Establish a national quality review process that includes
                                              all restricted interest cases.
2002-10-009    January 2002                   GPRA: Criminal Investigation Can Improve Its Performance Measures
                                              to Better Account for Its Results

                                10/01/03      F-2, R-1, P-1. Establish a process by which the Criminal Investigation
                                              Management Information System data will be verified and validated.
2002-30-050   February 2002                   Significant Efforts Have Been Made to Combat Abusive Trusts, but
                                              Additional Improvements Are Needed to Ensure Fairness and
                                              Compliance Objectives Are Achieved

                                03/15/04      F-2, R-1, P-1. Ensure the Abusive Trust Program consistently applies the
                                              accuracy-related penalty in accordance with IRS policy, in order to
                                              help ensure fair and equitable taxpayer treatment.
                                01/15/04      F-2, R-2, P-1. Provide examiners with formal guidance on the
                                              appropriate application of the accuracy-related penalty, in order to
                                              help ensure its consistent application.
                                10/01/03      F-4, R-1, P-1. Develop a system to capture the results of U.S. Income
                                              Tax Returns for Estates and Trusts (Form 1041) examinations that would
                                              provide management with information on emerging abusive trust
                                              issues, further noncompliance and allocate resources to maximize
                                              audit results.
2002-30-062    March 2002                     The Internal Revenue Service Continues to Owe Millions of Dollars in
                                              Interest to Taxpayers with Frozen Refunds

                                01/01/04      F-1, R-1, P-1. Modify the IRS’ computer system to systemically release
                                              the newly established Million Dollar Freeze for credit balances that fall
                                              below the $10 million threshold.




                                                                                                             41
SEMIANNUAL REPORT TO CONGRESS                                            SEPTEMBER 30, 2003



                            PROJECTED                       REPORT TITLE AND RECOMMENDATION SUMMARY
REFERENCE                   COMPLETION                  (F = FINDING NUMBER, R = RECOMMENDATION NUMBER,
  NUMBER        ISSUED        DATE                                       P = PLAN NUMBER)
2002-30-062   March 2002                    The Internal Revenue Service Continues to Owe Millions of Dollars in
                                            Interest to Taxpayers with Frozen Refunds

                            P-1: 01/01/04   F-1, R-2, P-1, P-2. Establish indicators on key computer screens and
                            P-2: 01/01/04   generate periodic notices as alerts for employees to review accounts
                                            with Million Dollar Freeze and take appropriate resolution actions.
                            P-1: 03/01/04   F-2, R-1, P-1, P-2. Coordinate efforts to provide updated training for
                            P-2: 03/15/04   employees that manually initiate refunds.
2002-10-078   March 2002                    The Internal Revenue Service’s Levy Process Can Be Improved to
                                            Ensure Compliance With the Internal Revenue Code

                              12/15/03      F-1, R-2, P-1. Ensure that revenue officers review available information
                                            to properly identify levies issued by Automated Collection System
                                            personnel and ensure the levies are appropriately released prior to
                                            closing a case Currently Not Collectible (CNC) (Hardship).
                              12/15/03      F-1, R-3, P-2. Before approving a CNC (Hardship) case closure, the
                                            case files should be reviewed to ensure levies are released, if
                                            appropriate, in compliance with the Internal Revenue Code. The
                                            revenue officer should document in the case history the reason why a
                                            levy was closed rather than released.
                              12/15/03      F-2, R-2, P-1. Ensure that a hardship determination is made before
                                            approving cases closed CNC.
2002-30-125    July 2002                    The Internal Revenue Service Does Not Always Address Subchapter S
                                            Corporation Officer Compensation During Examinations

                              06/15/03      F-1, R-1, P-1. Provide technical guidance and resources (such as
                                            software) to field personnel to aid in determining reasonable officer
                                            compensation.
                              02/01/04      F-2, R-1, P-1. Submit a Request for Information Services (RIS) that would
                                            require the corporate distributions on the Schedule M-2 to be input to
                                            the IRS’ computer system during returns processing, and therefore
                                            available to the IRS Midwest Automated Compliance System (MACS)
                                            database.
                              05/15/04      F-3, R-1, P-1. Submit a RIS to existing (and/or future) information
                                            systems (such as Examination Operational Database) to identify
                                            officer compensation-related adjustment assessments made to S
                                            Corporation employment tax accounts.
                              02/01/04      F-4, R-1, P-1. Establish consistent materials for educating and informing
                                            taxpayers and representatives of their S Corporation officer
                                            compensation tax obligations.
2002-30-141    July 2002                    The Internal Revenue Service Successfully Processed Schedules K-1 for
                                            Its Matching Program. However, Tax Form Changes Would Reduce
                                            Unnecessary Notices to Taxpayers

                              10/01/03      F-3, R-1, P-1. Make changes to the U.S. Individual Income Tax Return,
                                            Supplemental Income and Loss (Form 1040, Schedule E) as
                                            recommended in the District Office Research and Analysis study.
                                            Consideration should be given to classifying and reporting pass
                                            through income to facilitate easier comparisons to Schedules K-1 and
                                            to make the matching program more effective and less subject to
                                            extensive manual screening.
2002-40-144   August 2002                   Computers Used to Provide Free Tax Help and That Contain Taxpayer
                                            Information Cannot Be Accounted For
                              03/15/04      F-1, R-1, P-1. Perform a physical inventory of all computers included in
                                            the IRS’ Volunteer Income Tax Assistance/Tax Counseling for the
                                            Elderly (VITA/TCE) Program. This inventory should include verification of
                                            computers presently recorded on the Information Technology Asset
                                            Management System (ITAMS) as well as identification of computers in
                                            the VITA/TCE Program that are not yet recorded on ITAMS.




                                                                                                          42
SEMIANNUAL REPORT TO CONGRESS                                                 SEPTEMBER 30, 2003



                               PROJECTED                     REPORT TITLE AND RECOMMENDATION SUMMARY
REFERENCE                      COMPLETION                (F = FINDING NUMBER, R = RECOMMENDATION NUMBER,
  NUMBER         ISSUED          DATE                                     P = PLAN NUMBER)
2002-40-144    August 2002                     Computers Used to Provide Free Tax Help and That Contain Taxpayer
                                               Information Cannot Be Accounted For

                                 12/31/04      F-1, R-6, P-1. In the long term, pursue legislative changes that would
                                               allow IRS to transfer ownership of the computers to the VITA/TCE
                                               organizations.
2002-30-156   September 2002                   The Internal Revenue Service Does Not Penalize Employers that File
                                               Wage and Tax Statements with Inaccurate Social Security Numbers

                                 07/01/04      F-1, R-1, P-1. Ensure that the IRS initiate, as proposed in their response
                                               to our memorandum dated February 1, 2002, a regularly scheduled
                                               program for proposing penalties for Wage and Tax Statements (Forms
                                               W-2) with inaccurate name/Social Security Number combinations.
2002-30-186   September 2002                   The Internal Revenue Service Needs to Simplify Filing Requirements
                                               and Clarify Processing Procedures for Small Business Corporate
                                               Returns

                               P-1: 01/15/04   F-1, R-1, P-1, P-2. Simplify the process of filing election forms and U.S.
                               P-2: 01/15/04   Income Tax Returns for an S Corporation (Form 1120S) for new filers by
                                               determining if there are alternatives to make it easier for first-time filers
                                               to be granted elections and file their Forms 1120S, and by considering
                                               implementing alternatives and seeking modification of the legal
                                               requirements, as necessary.
                               P-1: 01/15/04   F-1, R-2, P-1, P-2. Develop procedures that would improve and simplify
                               P-2: 01/15/04   the process for approving, recording, and controlling elections and
                                               the related notification process to make it easier for taxpayers to file
                                               their Forms 1120S.
                                 01/15/04      F-2, R-1, P-1. Establish procedures for ensuring that IRS records
                                               accurately reflect the filing of Forms 1120S once the IRS subsequently
                                               verifies that an election was granted. Specific procedures should be
                                               developed for converting the Forms 1120 back to the originally
                                               intended Forms 1120S.
                                 01/15/04      F-2, R-2, P-1. Clarify Internal Revenue Manual procedures and assign
                                               responsibility for determining and assessing the correct taxes and
                                               issuing statutory notices of deficiency for small business corporate
                                               returns that could not be processed because the IRS could not verify
                                               that valid elections were filed.
2002-10-187   September 2002                   The New Suspension of Interest Provision Is Not Always Calculated
                                               Correctly

                                 02/15/04      F-1, R-1, P-1. Create a systemic reminder when tax audits are
                                               completed that would prompt employees and managers to consider
                                               whether the suspension of interest provision applies.
                                 02/15/04      F-1, R-2, P-1. Incorporate review requirements for the suspension of
                                               interest provision in the Examination Quality Review Process system.
                                 01/15/05      F-2, R-1, P-1. Identify all taxpayers with under assessed interest caused
                                               by the original Master File computer programming, regardless of
                                               whether or not the interest had been reestablished on the accounts,
                                               and zero out any under assessed amounts to prevent burden on
                                               future disaster relief taxpayers or other taxpayers in special military
                                               conditions.
                                 01/15/05      F-2, R-2, P-1. Identify disaster relief taxpayers and refund the amounts
                                               that were automatically collected on the under assessed interest.
                                 01/01/04      F-3, R-1, P-1. Submit a request for information services that will change
                                               the Master File computer programming for this 1-day discrepancy
                                               when calculating suspension of interest.
                                 01/01/04      F-3, R-2, P-1. Determine the feasibility of an earlier anticipated
                                               operational date of the Master File computer programming
                                               modification involving weekend and holidays when calculating
                                               suspension of interest.


                                                                                                                43
SEMIANNUAL REPORT TO CONGRESS                                              SEPTEMBER 30, 2003



                               PROJECTED                  REPORT TITLE AND RECOMMENDATION SUMMARY
REFERENCE                      COMPLETION             (F = FINDING NUMBER, R = RECOMMENDATION NUMBER,
  NUMBER          ISSUED         DATE                                  P = PLAN NUMBER)
2002-10-187   September 2002                The New Suspension of Interest Provision Is Not Always Calculated
                                            Correctly

                                01/01/04    F-3, R-3, P-1. Identify taxpayers’ accounts for Tax Years 1998 and 1999
                                            with disallowed Earned Income Tax Credit amounts that qualified for
                                            suspension of interest and reduce the amount of over assessed
                                            interest on these accounts.
2003-40-023   November 2002                 Trends in Customer Service in the Taxpayer Assistance Centers Show
                                            Procedural and Training Causes for Inaccurate Answers to Tax Law
                                            Questions

                                10/01/05    F-5, R-2, P-1. Explore other options such as the planned remote
                                            monitoring by Taxpayer Assistance Centers (TAC) managers, for
                                            conducting quality reviews of TAC employees on a regular basis.
2003-20-035   December 2002                 Additional Cost Savings and Increased Productivity in the Print
                                            Operation and Computer Support Function Can Be Achieved at the
                                            Campus Locations

                                03/15/04    F-1, R-1, P-1. Increased coordination should be required with users to
                                            discontinue printing reports that are currently available in both printed
                                            and electronic format and convert additional reports to the Electronic
                                            On-Line/Output Network System (EONS).
                                03/15/05    F-1, R-2, P-1. Establish a process for migrating identified efficient report
                                            distribution processes to all campuses.
                                01/15/04    F-1, R-4, P-1. Defer any upgrades of the new printers until the print
                                            requirements are re-evaluated based on additional reports being
                                            available or on the EONS and the transfer of notice printing to the
                                            consolidated print sites.
                                10/01/03    F-2, R-2, P-1. Ensure that performance management reports are
                                            created for the print operation and computer support function based
                                            on the performance measures established in Recommendation 3.
                                01/15/04    F-2, R-3, P-1. Ensure that managers compare results against
                                            performance measure goals and take actions to improve operational
                                            efficiency.
2003-40-022   December 2002                 Improvements Are Needed to Prevent the Potential Disclosure of
                                            Confidential Taxpayer Information

                                10/15/03    F-1, R-2, P-3. Evaluate the safeguard procedures to ensure the
                                            procedures address the content as well as the security of information
                                            shared under I.R.C. § 6103.
                                09/15/03    F-3, R-1, P-2. IRS safeguard procedures should be revised to provide
                                            specific criteria on which contractors should have their facilities
                                            inspected and to ensure that these inspections are made.
                                10/15/04    F-3, R-2, P-1. Internal safeguard and contract procedures should be
                                            revised to ensure they are in agreement and are in compliance with
                                            the appropriate laws concerning private contractors.
2003-30-039    January 2003                 Improvements to the Electronic Return Originator Monitoring Program
                                            Are Needed

                                10/15/03    F-1, R-2, P-1. Ensure that historical case documentation is maintained
                                            and re-enforce that the purpose of follow-up visits is to measure the
                                            impact of the Electronic Returns Originator (ERO) Monitoring Program
                                            compliance.
                                10/15/03    F-4, R-1, P-1. Develop a process to determine the proper mix of
                                            random and mandatory ERO monitoring visits that also provides for
                                            broad geographic coverage.
                                10/15/03    F-4, R-2, P-1. Develop uniform risk-based selection criteria that take
                                            advantage of available information and data for selecting EROs for
                                            random monitoring visits.
                                10/15/03    F-7, R-1, P-1. Issue a memorandum reinforcing the importance of
                                            complete case documentation of ERO monitoring visits.

                                                                                                            44
SEMIANNUAL REPORT TO CONGRESS                                               SEPTEMBER 30, 2003



                              PROJECTED                    REPORT TITLE AND RECOMMENDATION SUMMARY
REFERENCE                     COMPLETION               (F = FINDING NUMBER, R = RECOMMENDATION NUMBER,
  NUMBER         ISSUED         DATE                                    P = PLAN NUMBER)
2003-20-049   February 2003                   Employee Background Investigations Were Normally Completed;
                                              However, the Contractor Employee Background Investigation
                                              Program Needs Improvement

                                09/12/03      F-2, R-1, P-1. Ensure that policies and procedures are developed to
                                              ensure that contractor employee background investigations
                                              conducted by other government agencies (e.g. General Services
                                              Administration) are provided to the National Background Investigation
                                              Center.
                                10/15/03      F-2, R-2, P-1. Ensure that a Contracting Officer’s Technical
                                              Representative (COTR) training supplement is developed to
                                              emphasize the IRS-specific background investigations requirements
                                              and COTR roles, responsibilities and procedures.
                                09/12/03      F-2, R-3, P-1. Ensure that all contractor employees have properly paid
                                              their tax obligations.
                              P-2: 10/15/03   F-2, R-4, P-2. P-3. Ensure that background investigations are
                              P-3: 10/15/03   completed for active contractor employees that obtained
                                              identification badges without a background investigation.
                                07/15/04      F-2, R-5, P-2. Ensure that personnel in the Real Estate and Facilities
                                              area of the Agency-Wide Shared Services are adequately trained
                                              regarding the requirements for issuing a contractor employee an IRS
                                              identification badge.
                                10/15/05      F-3, R-1, P-1. Ensure that a consolidated or integrated system is
                                              implemented to effectively manage all background investigations
                                              and identification badges, incorporating the needs of all stakeholders
                                              and eliminating the use of stand-alone systems such as the Security
                                              Entry Tracking System and the Procurement Background Investigation
                                              Program.
                                10/15/05      F-3, R-2, P-1. Ensure that until a single system is implemented, all COTRs
                                              are required to use the Procurement Background Investigation
                                              Program regardless of their organizational placement, and complete
                                              periodic reconciliations between the contractor employee
                                              background investigation information and the identification badge
                                              information at each IRS facility are conducted to detect the issuance
                                              of contractor employee identification badges without completion of
                                              required background investigations.
                                10/15/03      F-4, R-1, P-1. Until a consolidated or integrated system is implemented,
                                              the systems application controls should be improved to ensure that all
                                              identification badge systems contain complete and accurate
                                              contractor employee information.
2003-10-054    March 2003                     The Internal Revenue Service Needs to Establish an Effective Process to
                                              Accurately Identify, Record, and Report Unemployment Trust Fund
                                              Administrative Expenses

                                02/15/04      F-1, R-1, P-1. Develop written procedures documenting a
                                              methodology, including the identification of all systems and sources of
                                              information, that would ensure the most reasonable and timely means
                                              of identifying and reporting all expenses associated with the IRS’
                                              administration of all trust fund taxes.
                                02/15/04      F-1, R-2, P-1. Establish controls to ensure that any amounts reported to
                                              the Bureau of the Public Debt are reviewed and approved by a senior
                                              level IRS executive.
                                02/15/04      F-1, R-3, P-1. Ensure that the ability to record and report trust fund
                                              administrative expenses, as currently envisioned in the Integrated
                                              Financial System development plans is properly implemented.




                                                                                                            45
SEMIANNUAL REPORT TO CONGRESS                                              SEPTEMBER 30, 2003



                            PROJECTED                     REPORT TITLE AND RECOMMENDATION SUMMARY
REFERENCE                   COMPLETION                (F = FINDING NUMBER, R = RECOMMENDATION NUMBER,
  NUMBER        ISSUED        DATE                                     P = PLAN NUMBER)
2003-10-076   March 2003                     Improved Oversight of the Guard Services Contract Is Needed to
                                             Ensure Compliance With Contract Terms and Conditions

                           P-1: 10/15/03     F-1, R-2, P-1, P-2. Consider changing the award fee plan to make
                           P-2: 10/15/03     compliance with all contract terms and conditions a prerequisite for
                                             the contractor’s award fee eligibility.
                           P-1: 02/18/05     F-1, R-3, P-1, P-2. Coordinate all remedies with the United States
                           P-2: 02/18/05     Attorney’s Office and the Office of Investigations regarding all
                                             appropriate legal actions.
2003-10-094   March 2003                     Improvements Are Needed in the Monitoring of Criminal Investigation
                                             Controls Placed on Taxpayers’ Accounts When Refund Fraud is
                                             Suspected

                             10/15/03        F-1, R-1, P-1. Consider providing future report listings to the Fraud
                                             Detection Center (FDC) in an electronic media format and consider
                                             changing the frequency of the report from quarterly to twice a year,
                                             during non-peak processing periods, to allow the FDC to focus their
                                             resources on taking necessary actions to resolve accounts.
                             10/15/03        F-1, R-2, P-1. Ensure that regular reviews of the Questionable Refund
                                             Program are conducted to assess compliance with procedures and
                                             that feedback is provided regarding program effectiveness. Also,
                                             analyses of the FDCs control listing data should be analyzed to ensure
                                             reviews are done and accounts are resolved.
2003-20-082   March 2003                     Penetration Test of Internal Revenue Service Computer Systems

                           P-1:   10/15/03   F-2, R-1, P-1, P-2, P-3, P-4. Assign strong passwords to all accounts,
                           P-2:   10/15/03   remove unnecessary accounts from all NT Domains, and set all
                           P-3:   10/15/03   passwords to expire on a regular interval.
                           P-4:   10/15/03

                           P-1: 10/15/03     F-3, R-1, P-1, P-2. Assign strong passwords or use Windows only
                           P-2: 10/15/03     authentication instead of mixed-mode authentication.

                           P-1: 10/15/03     F-4, R-1, P-1, P-2. Enforce a lockout threshold in all NT Domains and
                           P-2: 10/15/03     maintain a consistent password policy for all NT Domains.

                           P-1: 10/15/03     F-5, R-1, P-1, P, 2. Apply proper security patches and/or registry
                           P-2: 10/15/03     settings.
2003-20-089   March 2003                     Adhering to Established Development Guidelines Will Help to Ensure
                                             the Customer Account Data Engine Meets Expectations

                             01/15/04        F-1, R-1, P-1. The Business Systems Modernization Office (BSMO) should
                                             require the PRIME contractor to complete the remaining work on the
                                             balancing, control, and reconciliation process and fully test these
                                             processes to ensure they meet the design requirements.
                             01/15/04        F-1, R-3, P-1. The BSMO should monitor the completion of the
                                             remaining work contained in the detailed schedule to assess the
                                             progress in completing the balancing, control, and reconciliation
                                             process development.
                             01/15/04        F-2, R-1, P-1. The BSMO should work with the PRIME contractor to
                                             incorporate minimum documentation standards and the
                                             Documentation Task Force’s findings into the Customer Account Data
                                             Engine (CADE) Release 1 and future releases. (The PRIME contractor is
                                             the Computer Sciences Corporation, which heads an alliance of
                                             leading technology companies assisting the IRS with modernizing its
                                             computer systems and related technology.)
                             06/15/03        F-2, R-2, P-1. The BSMO should work with the PRIME contractor to
                                             incorporate these documentation standards into the Enterprise I Cycle
                                             (ELC).




                                                                                                             46
   SEMIANNUAL REPORT TO CONGRESS                                                    SEPTEMBER 30, 2003



                                       PROJECTED                      REPORT TITLE AND RECOMMENDATION SUMMARY
   REFERENCE                           COMPLETION                 (F = FINDING NUMBER, R = RECOMMENDATION NUMBER,
     NUMBER           ISSUED             DATE                                      P = PLAN NUMBER)
   2003-20-089      March 2003                          Adhering to Established Development Guidelines Will Help to Ensure
                                                        the Customer Account Data Engine Meets Expectations

                                        10/15/03        F-3, R-1, P-1. Ensure that development of job and file naming
                                                        standards is expeditiously completed by the IRS’ Enterprise Operations
                                                        Services organization. The BSMO needs to work with the PRIME
                                                        contractor to ensure that these naming standards are used in the
                                                        development of future CADE releases and all other IRS modernization
                                                        projects.




                                          STATISTICAL REPORTS - OTHERS

Access to Information
The Inspector General Act of 1978 requires IGs to report on unreasonable refusals of information available to the
agency that relate to programs and operations for which the IG has responsibilities. As of September 30, 2003,
there were no instances where information or assistance requested by Office of Audit was refused.

Disputed Audit Recommendations
The Inspector General Act of 1978 requires IGs to provide information on significant management decisions in
response to audit recommendations with which the IG disagrees. As of September 30, 2003, one report was issued
where a significant recommendation was disputed. Fiscal Year 2003 Statutory Audit of Compliance With Legal
Guidelines Prohibiting the Use of Illegal Tax Protester and Similar Designations, Report Reference No. 2003-40-098.

Revised Management Decisions
The Inspector General Act of 1978 requires IGs to provide a description and explanation of the reasons for any
significant revised management decisions made during the reporting period. As of September 30, 2003, no
significant management decisions were revised.

Audit Reports Issued in the Prior Reporting Period With No Management Response
The Inspector General Act of 1978 requires IGs to provide a summary of each audit report issued before the
beginning of the current reporting period for which no management response has been received by the end of
the current reporting period. As of September 30, 2003, there were no prior reports where management’s
response was not received.

Review of Legislation and Regulations
The Inspector General Act of 1978 requires IGs to review existing and proposed legislation and regulations and to
make recommendations concerning the impact of such legislation or regulations. TIGTA’s Office of Chief Counsel
reviewed 158 proposed regulations and legislative requests during this reporting period.




                                                                                                                   47
SEMIANNUAL REPORT TO CONGRESS                                     SEPTEMBER 30, 2003



                        APPENDIX IV – AUDIT PRODUCTS

                        APRIL 1, 2003 – SEPTEMBER 30, 2003




                    INSPECTOR GENERAL CONGRESSIONAL TESTIMONY
 REFERENCE NUMBER                                     HEARING TITLE

   APRIL 2003

   2003-OT-106        Hearing Before the Senate Finance Committee United States Senate on Tax
                      Scams and Schemes


    MAY 2003

   2003-OT-107        Hearing Before the U.S. House of Representatives Committee on Ways and
                      Means Subcommittee on Oversight

   2003-OT-128        Joint Hearing Before the Committees of the United States Senate and United
                      States House of Representatives, The Strategic Plans and Budget of the IRS


    JULY 2003

   2003-OT-153        Hearing Before the U.S. House of Representatives, Committee on the Budget




                                   AUDIT PRODUCTS
 REFERENCE NUMBER                                     REPORT TITLE

    APRIL 2003

    2003-20-095       Operating System Controls on the Consolidated Mid-Range Computer Systems
                      Can Be Improved
    2003-40-098       Fiscal Year 2003 Statutory Audit of Compliance With Legal Guidelines
                      Prohibiting the Use of Illegal Tax Protester and Similar Designations (Taxpayer
                      Rights & Entitlements: 321 taxpayers improperly identified; Reliability of
                      Information: 110 IRM subsections prohibited references to Illegal Tax Protester
                      designations.)
   2003-1C-086        Assist Audit Report of Fiscal Years 1998 Through 2001 Incurred Costs on
                      Subcontract Number 862067A
   2003-1C-087        Estimating System Deficiencies Found During Audit of Proposed Fiscal Year 2003
                      Forward Pricing Labor Rates
   2003-1C-100        Audit of Final Voucher TIRNO-95-D-00058, Delivery Order Number IR-96-TREA-
                      090530
    2003-20-084       Improvements Are Needed to Effectively Implement the Disaster Recovery
                      Strategy for Consolidated Mid-Range Computer Systems


                                                                                              48
SEMIANNUAL REPORT TO CONGRESS                                    SEPTEMBER 30, 2003




                                  AUDIT PRODUCTS
 REFERENCE NUMBER                                    REPORT TITLE
    2003-10-099     The Internal Revenue Service Should Closely Monitor the Small Purchase Card
                    Program to Ensure Compliance With Established Rules and Regulations
                    (Protection of Resources: $2.4 million in items purchased from restricted
                    purchase list or that were split purchases.)
    2003-40-105     Forms and Publications for the New Education and Retirement Tax Provisions
                    Were Addressed for the 2003 Filing Season (Taxpayer Burden: one publication
                    was not updated to reflect the new tuition and fees deduction included in the
                    Economic Growth and Tax Reconciliation Act.)
   2003-1C-085      Report on Forward Pricing Direct Labor Rates Effective July 6, 2002, Through
                    June 30, 2003

    MAY 2003

   2003-1C-101      Audit of Final Voucher TIRNO-95-D-00058, Delivery Order Number 0-7-TR-DO-TC-
                    A23
   2003-1C-102      TIRNO-00-D-00020 and TIRNO-95-D-00066 Cumulative Allowable Cost Worksheet
                    Fiscal Years Ended June 30, 2000 and 2001
    2003-40-110     Fiscal Year 2003 Statutory Review of Disclosure of Collection Activity With
                    Respect to Joint Returns
    2003-40-108     Controls Need to Be Improved to Ensure Accurate Direct Deposit of Tax
                    Refunds (Revenue Protection - 56 million paper filed returns with $100 billion in
                    refunds at risk of fraud.)
    2003-10-103     Project Management Techniques Need to Be Followed to Effectively Develop
                    the Tax Exempt Determination System
    2003-30-097     Many Taxpayers Are Paying Self-Employment Tax for Which They Receive No
                    Social Security Credit [Taxpayer Burden: $68 million reflecting the value of time
                    for over 560,000 taxpayers to prepare the Self-Employment Tax (Schedule SE)
                    form.]
    2003-30-104     Small Business/Self-Employed Division Management Needs to Increase Staffing
                    Commitments to Meet Its Electronic Filing Mission
    2003-40-115     Fiscal Year 2003 Statutory Audit of Compliance With Seizure Procedures
    2003-30-114     Significant Actions Were Taken to Address Small Corporations Erroneously
                    Paying the Alternative Minimum Tax, but Additional Actions Are Still Needed
    2003-20-117     Mainframe Computer Operations Efficiency and Effectiveness Should Be
                    Improved (Funds Put to Better Use: $18.9 million.) Note: monetary benefit
                    projected over a three-year period.
    2003-40-120     Progress Was Made to Provide Taxpayers With Correct Answers to Tax Law
                    Questions, but Improvements Are Needed to Ensure Referral Procedures Are
                    Followed
    2003-40-112     Computer Programming Requests for the 2003 Filing Season Were Timely
                    Prepared and Generally Accurate
    2003-20-119     The Security of the Integrated Collection System Needs to Be Strengthened
    2003-20-109     End User Equipment and Services Enterprise Service Desk Efficiency and
                    Effectiveness Can Be Improved (Inefficient Use of Resources: $23.6 million spent
                    for staff that could be available for other tasks.)
   2003-10-122      The Effectiveness of Management and Union Partnering Could Be Improved
   2003-1C-121      Follow-Up Audit on Information Technology System General Internal Controls
   2003-40-125      Improvements Are Needed in the Oversight and Administration of the Low-
                    Income Taxpayer Clinic Program (Taxpayer Burden: over 62 million taxpayers
                    may not be aware of the Low-Income Taxpayer Clinic Program.)



                                                                                             49
SEMIANNUAL REPORT TO CONGRESS                                     SEPTEMBER 30, 2003




                                  AUDIT PRODUCTS
 REFERENCE NUMBER                                     REPORT TITLE
    2003-30-111     The Internal Revenue Service Has Opportunities to Provide Hearing-and
                    Speech-Impaired Taxpayers With Easier Access to Toll-Free Telephone Services
    2003-30-123     New Regulations Are Needed to Take Full Advantage of the Opportunities
                    Offered by Filing Large Corporate Income Tax Returns Electronically (Funds Put
                    to Better Use: $1 million; Increased Revenue: $182.8 million; Taxpayer Burden:
                    5.5 million taxpayers that would benefit from electronic filing.) Note: monetary
                    benefit computed over a five-year period.
    2003-40-124     Additional Effort Is Needed to Prevent Taxpayers’ Personal Exemptions and Tax
                    Credits From Being Erroneously Denied (Taxpayer Rights and Entitlements: $34.8
                    million for 52,841 taxpayers denied spouses’ personal exemptions and Earned
                    Income Tax Credits.)

    JUNE 2003

    2003-30-113     The Collection Inventory Replacement Initiative Was Generally Effective;
                    However, Additional Attention Is Needed (Increased Revenue: $116.1 million
                    for 40 accounts; Taxpayer Rights and Entitlements: 1,739 taxpayers requiring
                    assistance.)
   2003-1C-130      Follow-Up Audit on Estimating System and Internal Controls
   2003-40-135      Not All Available Information Was Considered When Self-Employment Income
                    Was Examined During the Fiscal Year 2000 Earned Income Tax Credit Initiative
                    (Increased Revenue: $8.3 million; Taxpayer Rights and Entitlements: 3,457
                    taxpayers that lost Social Security credits; Inefficient Use of Resources: $460,000
                    for staff that would be available for other tasks.)
    2003-20-133     Inappropriate Personal Use of the Internet Jeopardizes the Security and Privacy
                    of Taxpayer Data
    2003-40-131     Fiscal Year 2003 Statutory Review of Restrictions on Directly Contacting
                    Taxpayers
    2003-40-126     Taxpayers Were Assessed Additional Tax for Advance Earned Income Credit
                    Payments Not Received (Taxpayer Burden: 106 taxpayers with tax abatements;
                    Taxpayer Rights and Entitlements: $267,000 in taxes, for 35 taxpayers, should
                    have been abated and 65,000 taxpayers that may have been incorrectly
                    assessed approximately $26 million in tax for Advance Earned Income Credit
                    Payments they did not receive.)
    2003-10-134     The Structures of the Internal Revenue Service and the National Treasury
                    Employees Union Are Not Effectively Aligned
    2003-10-116     Oversight of Streamlined Critical Pay Authority Could Be Improved
    2003-30-132     Budget Issues Are Delaying the Expanded Use of Predictive Dialer Systems for
                    Contacting Delinquent Taxpayers
    2003-10-137     Imminent Assessment Statute Expiration Cases For Exempt Organizations Are
                    Adequately Monitored, but Management Can Better Adhere To Controls At
                    The Group Level
    2003-40-129     The Internal Revenue Service Does Not Have Controls Over Manual Levies to
                    Protect the Rights of Taxpayers (Taxpayer Rights and Entitlements: 8 taxpayers
                    whose appeal rights are not protected)
    2003-40-136     Improvements Are Needed to Ensure Innocent Spouse Claims Are Accurately
                    and Timely Processed (Increased Revenue: $219,000 for 32 taxpayers; Taxpayer
                    Rights and Entitlements: 107,723 taxpayer claims may have been subjected to
                    inaccurate processing; Taxpayer Burden: 10,732 taxpayer claims were not
                    timely processed.)



                                                                                               50
SEMIANNUAL REPORT TO CONGRESS                                      SEPTEMBER 30, 2003




                                  AUDIT PRODUCTS
 REFERENCE NUMBER                                     REPORT TITLE
    2003-40-139     Opportunities Exist to Improve the Administration of the Earned Income Tax
                    Credit (Reliability of Information: the IRS budget includes $437 million used to
                    administer the Earned Income Tax Credit program. Without long-term goals
                    and measures, IRS cannot determine if its efforts to improve the administration
                    of the EITC program are effective.)
    2003-20-127     Security Testing and Certification of the Modernized Infrastructure Needs to Be
                    Strengthened

   JULY 2003
    2003-10-140     Systems Acceptability Testing for the Tax Exempt Determination System Was
                    Planned and Executed As Intended
   2003-20-118      Security Over Computers Used in Telecommuting Needs to Be Strengthened
   2003-1C-144      Audit of Adequacy and Compliance of Disclosure Statement Revision 13,
                    Dated April 2, 2003; Effective January 1, 2003
    2003-30-142     The Internal Revenue Service Acted on Recommendations to Help Farmers
                    Receive the Intended Benefit of the Farm Income Averaging Provision
                    (Taxpayer Rights and Entitlements: $4.4 million for 4,266 taxpayers that did not
                    receive the full intended benefit.)
    2003-30-143     The Practitioner Priority Service Was Successful in Its First Year of Operation, but
                    Action to Reduce Caller Wait Time Is Needed
    2003-10-138     Three Violations of the Fair Debt Collection Practices Act Resulted in
                    Administrative Actions
    2003-30-146     Tax Returns With the Potential for Unreported Income Are Being Identified, but
                    Some Challenges Still Exist With the Program
    2003-30-147     Controls Over the Employer Abatement Program Cases Can Be Improved
                    (Reliability of Information: 165 taxpayer accounts not identified on the
                    management information system.)
   2003-1C-145      Budget System and Financial Control Audit
   2003-1C-148      Report on Audit of Compliance With Cost Accounting Standard 408,
                    Accounting for Costs of Compensated Personal Absence
   2003-1C-149      Report on Audit of Compliance With Cost Accounting Standard 404,
                    Capitalization of Tangible Assets
   2003-1C-150      Report on Compliance With Requirements Applicable to Major Programs and
                    on Internal Control Over Compliance in Accordance With the Office of
                    Management and Budget Circular A-133, Fiscal Year 2002, TIRNO-99-D-0005
                    (Questioned Costs: $1,069.)
    2003-10-154     Despite Increased Accountability, Improved Control Is Needed Over Union
                    Time
    2003-10-156     Appeals Complied With the Legal Requirements for Collection Due Process
                    and Equivalent Hearings (Taxpayer Rights and Entitlements: 4,777 taxpayers
                    given equivalent hearings, not informed of the Appeals Officer’s or Settlement
                    Officer’s involvement, and/or whose rights to judicial review were not
                    disclosed.)
    2003-20-151     The Implementation of Software Products to Manage and Control Computer
                    Resources Needs Improvement (Inefficient Use of Resources: $5.5 million in
                    resource savings by improved program management.)
    2003-40-157     Taxpayer Assistance Center Employees Improved the Accuracy of Answers to
                    Tax Law Questions but Answered Some Questions Beyond Their Level of Training




                                                                                                51
SEMIANNUAL REPORT TO CONGRESS                                     SEPTEMBER 30, 2003




                                  AUDIT PRODUCTS
 REFERENCE NUMBER                                     REPORT TITLE

   AUGUST 2003

    2003-40-159     The Internal Revenue Service Should Expand the Successful Automation of
                    Payment Processing to Include Additional Documents (Inefficient Use of
                    Resources: IRS issued 1,283,883 levies in FY 2002. Machine scanable posting
                    vouchers supplied with levies would allow payments to be processed through
                    IRS' automated systems.)


    2003-20-161     Improvements to the Modernized Infrastructure Are Needed to Support the
                    Deployment of Business Systems Modernization Projects (Reliability of
                    Information: project cost increases of $267.8 million may be controllable if cost
                    information was timely coordinated and based on accurate and complete
                    information.)
    2003-30-152     The New Process for Managing Requests for Tax Records During Examinations
                    of Large Businesses Can Reduce Taxpayer Burden if Implemented Consistently
    2003-30-162     The Regulations for Granting Extensions of Time to File Are Delaying the Receipt
                    of Billions of Tax Dollars and Creating Substantial Burden for Compliant
                    Taxpayers (Funds Put to Better Use: $42.1 million; Increased Revenue: $6.9 billion;
                    Taxpayer Burden: $806.9 million for 15.1 million taxpayers from reduction in
                    extension form submission time; Taxpayer Rights and Entitlements: $7.7 billion in
                    reduced penalties and interest.) Note: monetary benefit projected over a five-
                    year period.
    2003-40-163     Limited English Proficient Taxpayers Need Improved Written Products to Help
                    Them Understand and Comply With Tax Laws (Taxpayer Burden: 21 million
                    taxpayers with limited English proficiency do not have the benefit of translated
                    tax documents.)
    2003-40-158     Trends in Customer Service in the Taxpayer Assistance Centers Continue to
                    Show Procedural Causes for Inaccurate Answers to Tax Law Questions
                    (Taxpayer Burden: 93 questions not correctly answered; Reliability of
                    Information: The IRS cannot rely upon its management information system to
                    provide accurate, valid, and relevant financial and operational data for its
                    taxpayer assistance program whose FY 2003 budget is $132 million.)
   2003-1C-166      Report on Audit of Direct and Indirect Costs for FY 2002
   2003-40-165      Improvements Are Needed to Ensure Individual Taxpayers Have an Easy, No-
                    Cost Option to e-file Their Tax Returns (Funds Put to Better Use: the IRS could
                    save $37.3 million by processing e-filed, rather than paper, returns; Taxpayer
                    Burden: 126.6 million taxpayers would benefit from timely and accurate e-file
                    participation information. Taxpayers would pay $402.6 million if free e-file were
                    not offered.)
    2003-30-160     The Offshore Credit Card Project Shows Promise, but Improvements Are
                    Needed to Ensure That Compliance Objectives Are Achieved
    2003-10-172     Tax-Exempt Bond Examination Results Are Used to Focus Customer Education
                    Programs
    2003-30-169     Processing Changes Would Enhance Service to Taxpayers Filing Amended U.S.
                    Corporation Income Tax Returns (Funds Put to Better Use: $1.1 million; Increased
                    Revenue: $2,238 for 4 taxpayers; Revenue Protected: $1.3 million for 7
                    taxpayers; Taxpayer Burden: 40 taxpayers with unnecessary contacts; Taxpayer
                    Rights and Entitlements: 12 taxpayers with delayed refunds.)
    2003-10-177     Procedures Established to Ensure Compliance With the Rural Development Act
                    of 1972 Were Not Consistently Followed

                                                                                               52
SEMIANNUAL REPORT TO CONGRESS                                     SEPTEMBER 30, 2003




                                  AUDIT PRODUCTS
 REFERENCE NUMBER                                     REPORT TITLE
    2003-10-141     The Tax Exempt and Government Entities Division Could Improve the Efficiency
                    of Its Advance Ruling Follow-Up Process (Taxpayer Burden: 14,502 taxpayers
                    that may not have to submit financial information; Inefficient Use of Resources:
                    10.73 staff years that could be reallocated if Form 990 information was used;
                    Reliability of Information: 22 public charities whose accounts were not correctly
                    updated.)
    2003-10-164     Opportunity For Improvements Exists for Compliance With the Freedom of
                    Information Act and Related Procedures (Taxpayer Rights and Entitlements:
                    2,741 FOIA, Privacy Act and I.R.C. Section 6103 requests were improperly
                    withheld or not timely provided.)
    2003-10-170     Inadequate Planning Leads to Costly Enterprise License Agreements for Software
                    (Funds Put to Better Use: $8 million; Inefficient Use of Resources: $17.6 million.)
    2003-IC-167     Incurred Costs Audit for Fiscal Year 2001
    2003-IC-168     Agreed-Upon Procedures for Subcontract Number S800603, Prime Contract
                    Number TIRNO-99-D-00001
   2003-1C-188      Audit of Accounting System and Related Internal Controls
   2003-1C-189      Audit of Final Vouchers, TIRNO-95-D-00063
   2003-10-181      The Accuracy of the Federal Activities Inventory Can Be Improved
   2003-30-176      Interest Paid to Large Corporations Could Significantly Increase Under a
                    Proposed New Revenue Procedure (Funds Put to Better Use: $1.84 billion.) Note:
                    monetary benefit projected over a five-year period.
    2003-40-185     More Information Is Needed to Determine the Effect of the Discretionary
                    Examination Program on Improving Service to All Taxpayers (Reliability of
                    information: the Discretionary Examination Program, with a FY 2003 budget of
                    $38 million, does not have established goals needed by management and the
                    Congress to make informed program decisions.)
    2003-10-171     Taxpayers’ Refund Claims Received Near the Refund Statute Expiration Date
                    Were Appropriately Processed, but Enhancements Could Be Made (Funds Put
                    to Better Use: $461,000; Taxpayer Rights and Entitlements: $3.4 million for 119,142
                    taxpayers with refund claims inappropriately disallowed or who were not
                    informed about the financial disability provision.)
    2003-10-155     Suspension of Interest and Failure-to-Pay Penalties Were Not Always Calculated
                    Correctly for Tax Credits (Taxpayer Rights and Entitlements: $16.7 million for 1.3
                    million taxpayers with interest and penalties not correctly calculated.)
    2003-10-179     Requirements Definition of the Integrated Financial System
    2003-30-183     Improvements Are Needed to Ensure Large Dollar Manual Refunds Are Issued
                    Accurately and Timely (Funds Put to Better Use: $1.8 million; Taxpayer Rights
                    and Entitlements: $238.3 million for 8 taxpayers with manual refunds were not
                    accurate.)
    2003-40-180     More Information Is Needed to Determine the Effect of the Automated
                    Underreporter Program on Improving Voluntary Compliance (Reliability of
                    Information: the Automated Underreporter Program, with a FY 2003 budget of
                    $32 million, requires long-term goals and measures to determine the
                    effectiveness of the program in improving voluntary compliance.)

  SEPTEMBER 2003

    2003-10-184     Employee Misconduct Allegations Were Accurately Reported
    2003-30-173     Improved Screening of Potentially Fraudulent Employment Tax Refunds Would
                    Reduce Significant Processing Delays for Legitimate Refunds



                                                                                               53
SEMIANNUAL REPORT TO CONGRESS                                    SEPTEMBER 30, 2003




                                 AUDIT PRODUCTS
 REFERENCE NUMBER                                    REPORT TITLE
    2003-10-194     Audit of Personnel Classification Support Services Contract (Questioned Costs:
                    $37,947; Protection of Resources: weaknesses in the contractor’s controls over
                    timekeeping put $310,000 at an increased risk for error and manipulation.)
    2003-30-175     A Reliable Management Information System Is Needed Before Making Funding
                    Decisions to Address Underreporting of Taxes on Employer’s Quarterly Tax
                    Returns
    2003-30-182     Continued Progress Is Needed to Improve the Centralized Offer in Compromise
                    Program
    2003-40-198     Taxpayer Assistance Center Employees Continued to Improve the Accuracy of
                    Answers to Tax Law Questions During May and June 2003

    2003-10-191     Substantial Efforts Were Made to Manage the Increased Telephone Call
                    Demand, but Additional Actions Are Needed to Address Continued Increases
   2003-1C-192      Labor Floor Checks for Fiscal Year 2003
   2003-30-186      Some Automated Collection System Business Results Have Recently Improved,
                    but More Emphasis on Nonfilers Is Needed
    2003-40-193     Fiscal Year 2003 Statutory Audit of Compliance With Notifying Taxpayers of Their
                    Rights When Requested to Extend the Assessment Statute (Taxpayer Rights and
                    Entitlements: 134 taxpayers that may not have been properly notified of their
                    rights.)
    2003-10-190     Additional Strategies Are Needed to Ensure the Employee Plans Compliance
                    Resolution System Will Accomplish Its Intended Purposes
    2003-30-174     Current Trends in the Administration of International Transfer Pricing by the
                    Internal Revenue Service
   2003-1C-206      Report on Audit of Cost Accounting Standard 410, Allocation of Business Unit
                    General and Administrative Expenses to Final Cost Objectives
    2003-30-195     Procedures for Granting Installment Agreements to Self-Employed Taxpayers
                    Can Be Improved (Increased Revenue: $713,000 that may be due from
                    taxpayers not current with their estimated taxes and 47 cases that did not have
                    a proper financial analysis and/or were not properly approved.)
    2003-30-199     Preparations Were Successful for Implementation of Two New Business Tax
                    Credits
   2003-1C-205      Report on Audit of Direct and Indirect Costs for Contractor’s Fiscal Year 2002
   2003-10-202      Appeals Could Take Additional Actions to Improve the Timeliness of Collection
                    Due Process Cases (Taxpayer Burden: 2,735 taxpayer accounts with delays in
                    initial contacts.)
    2003-10-204     Additional Emphasis Is Needed to Reduce the Burden for Tax Exempt and
                    Government Entities Division Customers During Returns Processing
    2003-20-178     Testing Practices for Business Systems Modernization Projects Need
                    Improvement
    2003-20-209     The Modernization, Information Technology and Security Services Organization
                    Needs to Take Further Action to Complete Its Human Capital Strategy
   2003-1C-207      Audit of the Contractor’s General Services Administration Time and Materials
                    Labor Practices
    2003-30-196     More Effective Actions Can Be Taken When Collecting Accounts of Defunct
                    Businesses
    2003-40-216     Toll-Free Tax Law Assistance to Taxpayers Is Professional and Timely, but
                    Improvement Is Needed in the Information Provided (Taxpayer Burden: 57
                    taxpayers that did not receive correct and complete answers to their tax law
                    questions.)



                                                                                            54
SEMIANNUAL REPORT TO CONGRESS                                     SEPTEMBER 30, 2003




                                  AUDIT PRODUCTS
 REFERENCE NUMBER                                     REPORT TITLE
    2003-10-201     Lead Development Centers Do Not Significantly Contribute to Increases in
                    Legal Source Cases (Inefficient Use of Resources: 928 staff days available for
                    other priority work.)
    2003-10-213     Improvements Are Needed in the Process and Information Used to Manage
                    Workers’ Compensation Claims (Protection of Resources: $798,000 in Worker's
                    Compensation paid though there was no indication of actions to return the
                    employees to work or to verify disability; Reliability of Information: $2.4 million
                    overstated cost avoidance performance measure.)
    2003-10-200     Clarifying Goals and Refining Processes Would Improve the Employee Plans Risk
                    Assessment Program (Inefficient Use of Resources: 32,678 staff days available
                    for other priority work.)
    2003-10-210     The Tax Fraud Hotline Has Not Been an Effective Source for Criminal Tax
                    Investigations (Funds Put to Better Use: $2,678; Revenue Protection: $3,352.)
    2003-20-211     Key Security Controls of the Currency and Banking Retrieval System Have Not
                    Been Implemented

                    The Process for Notifying Taxpayers Regarding Their Elections to File As Small
                    Business Corporations Should Be Improved (Taxpayer Burden: 604,000 taxpayers
    2003-30-197
                    that may not have been notified of the acceptance or denial of their Forms
                    1120S elections.)
   2003-1C-215      Audit of Final Vouchers, TIRNO-95-D-00063
                    Information on Employee Training Is Not Adequate to Determine Training Cost
    2003-10-212     or Effectiveness (Reliability of Information: training costs budgeted at $111
                    million, cannot be determined from the information provided.)
                    The Tax Exempt and Government Entities Division Should Pursue Additional
    2003-10-217
                    Methods to Identify Potential Fraudulent Activities
                    Interest and Penalties for Taxpayers Affected by Natural Disasters Are Not
                    Always Prevented or Abated (Taxpayer Rights and Entitlements: 79,288
    2003-10-218
                    taxpayers who were overassessed or accrued interest, Failure to File and Failure
                    to Pay Penalties totaling $10.7 million.)
    2003-20-208     Annual Assessment of the Business Systems Modernization Program
                    The Cost and Schedule Estimation Process for the Business Systems
    2003-20-219     Modernization Program Has Been Improved, but Additional Actions Should Be
                    Taken
                    The National Taxpayer Advocate Could Enhance the Management of
    2003-10-187     Systemic Advocacy Resources (Taxpayer Burden: 16.7 million taxpayers
                    affected by delays in completion of systemic advocacy projects.)
                    The Information Technology Services Organization Needs to Complete Its
    2003-20-220
                    Business Resumption Planning




                                                                                               55
   SEMIANNUAL REPORT TO CONGRESS                                                     SEPTEMBER 30, 2003



                        APPENDIX V – STATUTORY TIGTA REPORTING REQUIREMENTS


Thirty-nine statutory audit reports that dealt with the adequacy and security of IRS technology were issued during
this fiscal year. In FY 2003, TIGTA completed its fifth round of statutory reviews that are required annually by Internal
Revenue Service Restructuring and Reform Act of 1998 (RRA 98). The following table reflects the status of the FY
2003 RRA 98 statutory reviews.


   REFERENCE TO STATUTORY             EXPLANATION OF THE
         COVERAGE                         PROVISION                         COMMENTS/TIGTA AUDIT STATUS

 Enforcement Statistics             An evaluation of IRS’         Reference No. 2003-40-090, March 2003
                                    compliance with
 Internal Revenue Code              restrictions under Section    IRS is generally complying with the law. A review of 74
 (I.R.C.)                           1204 of RRA 98 on the use     judgmentally sampled enforcement employees’
 § 7803(d)(1)(A)(i)                 of enforcement statistics     performance and related supervisory documentation
                                    to evaluate IRS               prepared between October 1, 2001, and
                                    employees.                    August 31, 2002, revealed no instances of the use of
                                                                  records of tax enforcement results, production
                                                                  quotas, or goals to evaluate employee performance.
                                                                  There was also improvement over the previous year in
                                                                  documenting the evaluation of employees on the fair
                                                                  and equitable treatment of taxpayers. In addition, a
                                                                  review of 21 statistically sampled appropriate
                                                                  supervisors showed the IRS completed the required
                                                                  consolidated office certification memorandums on
                                                                  whether records of tax enforcement results were used
                                                                  in a prohibitive manner.


 Restrictions on Directly           An evaluation of IRS’         Reference No. 2003-40-131, June 2003
 Contacting Taxpayers               compliance with
                                    restrictions under I.R.C.     As in the prior reviews, TIGTA could not determine
 I.R.C.                             § 7521 on directly            whether IRS employees followed proper procedures
 § 7803(d)(1)(A)(ii)                contacting taxpayers          to stop an interview if the taxpayer requested to
                                    who have indicated that       consult with a representative. Neither IRS nor TIGTA
                                    they prefer their             could readily identify cases where the taxpayer
                                    representatives be            requested a representative or the IRS contacted the
                                    contacted.                    taxpayer directly and bypassed the representative.
                                                                  IRS management information systems do not
                                                                  separately record or monitor direct contact
                                                                  requirements, and the Congress has not explicitly
                                                                  required IRS to do so. TIGTA does not recommend
                                                                  the creation of a separate tracking system.




                                                                                                                  56
  SEMIANNUAL REPORT TO CONGRESS                                                   SEPTEMBER 30, 2003




 REFERENCE TO STATUTORY           EXPLANATION OF THE
       COVERAGE                       PROVISION                           COMMENTS/TIGTA AUDIT STATUS

Filing of a Notice of Lien      An evaluation of IRS’          Reference No. 2003-40-066, February 2003
                                compliance with
I.R.C.                          required procedures            IRS did not completely comply with the law. A review
§ 7803(d)(1)(A)(iii)            under I.R.C.                   of 300 Notices of Federal Tax Liens (NFTLs) identified
                                § 6320 upon the filing of      12 NFTLs (4%) where IRS did not comply with all the
                                a notice of lien.              provisions of I.R.C. § 6320. IRS correctly mailed the lien
                                                               notices; however, it did not mail all of them timely. In
                                                               addition, for another 16 NFTLs (5%), TIGTA could not
                                                               determine if IRS complied with the law because it did
                                                               not provide proof of timely mailing. In 59 (20%) of the
                                                               300 NFTLs, IRS did not follow its own internal guidelines
                                                               when issuing lien notices, including its guidelines for
                                                               notifying taxpayer representatives and receipting and
                                                               maintaining certified mail registers.


Extensions of the Statute of    Include information            Reference No. 2003-40-193, September 2003
Limitations for Assessment of   regarding extensions of
Tax                             the statute of limitations     Most related case files documented that taxpayers or
                                for assessment of tax          their representatives were advised of their rights
I.R.C.                          under I.R.C. § 6501 and        regarding assessment statute extensions. IRS
§ 7803(d)(1)(C)                 the provision of notice to     employees properly advised taxpayers of their rights
                                taxpayers regarding the        to refuse or restrict the scope of the statute extension
I.R.C.                          right to refuse or limit the   in most of the related case files (113 of 153) reviewed.
§ 6501(c)(4)(B)                 extension to particular        However, in some cases (40 of 153) employees did
                                issues or a particular         not document in the related case files whether or not
                                period of time.                taxpayers were advised of their rights. Also,
                                                               employees did not always document that both
                                                               taxpayers who jointly filed returns (37 of 59) were
                                                               separately notified of their rights to extend the statute.
                                                               In addition, where taxpayers made a declaration of
                                                               representation, there was no documentation in the
                                                               related case files (57 of 109) that the IRS had provided
                                                               both the taxpayers and their representatives with the
                                                               advice of rights.




                                                                                                                57
  SEMIANNUAL REPORT TO CONGRESS                                      SEPTEMBER 30, 2003




 REFERENCE TO STATUTORY     EXPLANATION OF THE
       COVERAGE                 PROVISION                   COMMENTS/TIGTA AUDIT STATUS

Levies                    An evaluation of IRS’   Reference No. 2003-40-129, June 2003
                          compliance with
I.R.C.                    required procedures     IRS has systemic controls that effectively ensure
§ 7803(d)(1)(A)(iv)       under I.R.C. § 6330     taxpayers are informed of their appeal rights at least
                          regarding levies.       30 days prior to receiving a systemically generated
                                                  levy. This is due primarily to systemic controls in both
                                                  the Automated Collection System (ACS) and the
                                                  Integrated Collection System (ICS) that prevent a levy
                                                  from being generated unless there were at least
                                                  30 days between the date taxpayers received the
                                                  notice of their appeal rights and the date of the
                                                  proposed levy.

                                                  While IRS has done an effective job of implementing
                                                  controls over levies generated by the ACS and ICS,
                                                  additional controls are needed over manual levies
                                                  issued by revenue officers. The ACS must issue
                                                  manual levies in some circumstances. To protect the
                                                  taxpayers’ rights, all of these are reviewed and
                                                  approved by managers prior to the levy being issued.
                                                  Conversely, revenue officers are authorized to issue
                                                  manual levies on any case. However, manual levies
                                                  issued by revenue officers are not required to be
                                                  reviewed and approved by a manager, which
                                                  significantly increases the risk of taxpayers not having
                                                  their appeal rights properly protected. As a result,
                                                  TIGTA recommended that management review and
                                                  approve all manual levies issued by revenue officers
                                                  to ensure that taxpayers are properly advised of their
                                                  rights.

                                                  IRS management did not agree with the
                                                  recommendation to have group managers approve
                                                  all manual levies prepared by revenue officers. They
                                                  stated this may delay enforcement action and
                                                  expressed concern about the impact on field
                                                  employees that further increasing the oversight of
                                                  enforcement action could have. Alternatively, IRS
                                                  indicated that it believes the errors evidence a
                                                  training issue. To help address these concerns and
                                                  reinforce the procedures, IRS will issue a
                                                  memorandum reminding revenue officers that all
                                                  notice requirements must be satisfied before issuing a
                                                  manual levy. In addition, it will recommend the
                                                  requirements be discussed during group meetings.




                                                                                                 58
  SEMIANNUAL REPORT TO CONGRESS                                               SEPTEMBER 30, 2003




 REFERENCE TO STATUTORY           EXPLANATION OF THE
       COVERAGE                       PROVISION                      COMMENTS/TIGTA AUDIT STATUS

Collection Due Process          An evaluation of IRS’      Reference No. 2003-10-156, July 2003
                                compliance with
I.R.C.                          required procedures        The Appeals Officers and Settlement Officers (hearing
§ 7803(d)(1)(A)(iii) and (iv)   under I.R.C. §§ 6320 and   officers) were in compliance with the requirements of
                                6330 regarding the         the law when conducting Collection Due Process
                                taxpayers’ rights to       (CDP) hearings and Equivalent Hearings (EH). The
                                appeal lien or levy        hearing officers appropriately verified that the IRS
                                actions.                   followed the applicable laws or administrative
                                                           procedures during the lien and levy process. They
                                                           considered the challenges the taxpayers raised and
                                                           determined whether the proposed collection actions
                                                           properly balanced the need for efficient collection of
                                                           taxes with any legitimate taxpayer concerns. The
                                                           hearing officers addressed these provisions in the CDP
                                                           determination letters and the EH decision letters. In
                                                           addition, the hearing officers followed guidelines from
                                                           the Appeals manual by including information such as
                                                           in which court the taxpayers must file their request for
                                                           judicial review, as well as information about any
                                                           agreements reached during the hearing, and any
                                                           subsequent actions to be taken by the IRS or the
                                                           taxpayer.


Seizures                        An evaluation of IRS’      Reference No. 2003-40-115, May 2003
                                compliance with
I.R.C.                          required procedures        Based on TIGTA’s review of a sample of 102 seizures
§ 7803(d)(1)(A)(iv)             under I.R.C. §§ 6330       performed during October 2001 through June 2002,
                                through 6344 when          TIGTA determined that actions taken by the IRS when
                                conducting seizures.       seizing taxpayers’ property for payment of delinquent
                                                           taxes were in accordance with the applicable legal
                                                           provisions. In addition, IRS employees generally
                                                           followed all internal guidelines. However, for two
                                                           seizures, the IRS did not complete all internal
                                                           procedural requirements timely. TIGTA does not
                                                           believe that IRS’ actions in these cases resulted in
                                                           violations of the taxpayer’s legal rights.




                                                                                                          59
  SEMIANNUAL REPORT TO CONGRESS                                                     SEPTEMBER 30, 2003




 REFERENCE TO STATUTORY              EXPLANATION OF THE
       COVERAGE                          PROVISION                          COMMENTS/TIGTA AUDIT STATUS

Taxpayer Designations –            An evaluation of IRS’         Reference No. 2003-40-098, April 2003
Illegal Tax Protester              compliance with
Designation and Nonfiler           restrictions under            In general, IRS is in compliance with the prohibition on
Designation                        Section 3707 of RRA 98        using Illegal Tax Protester (ITP) or similar designations.
                                   on designation of             IRS has not reintroduced past ITP codes on the IRS’
I.R.C.                             taxpayers.                    Master File and has not reassigned any similar ITP
§ 7803(d)(1)(A)(v)                                               designations to formerly coded ITP taxpayer
                                                                 accounts. IRS has effectively updated or made
                                                                 obsolete any publications containing ITP references
                                                                 and is taking steps to remove references from the
                                                                 Internal Revenue Manual. IRS employees continue to
                                                                 label taxpayers as ITPs and other similar designations
                                                                 in case narratives. However, IRS has taken actions to
                                                                 discourage the use of these designations.

                                                                 In response to the report, IRS stated, based on an
                                                                 opinion by IRS Chief Counsel, that notations in case
                                                                 histories to taxpayers as “tax protesters” and other
                                                                 similar designations are not “designations” within the
                                                                 meaning of the law. According to IRS, to be a
                                                                 prohibited “designation,” there must be an intent to
                                                                 set apart that person for a purpose, such as denying
                                                                 the taxpayer an administrative opportunity that is
                                                                 available to other taxpayers. Merely making
                                                                 references to taxpayers or their actions does not
                                                                 constitute a “designation” because those taxpayers
                                                                 continue to receive the same administrative remedies
                                                                 as all other taxpayers. Because TIGTA is required to
                                                                 annually evaluate IRS’ compliance with this provision
                                                                 of the law, TIGTA elevated the disagreement about
                                                                 whether employees are labeling taxpayers as ITPs to
                                                                 the Department of the Treasury.


Disclosure of Collection           Review and certify            Reference No. 2003-40-110, May 2003
Activities With Respect to Joint   whether or not IRS is
Returns                            complying with I.R.C.         This is the fifth year that TIGTA could not determine
                                   § 6103(e)(8) to disclose      whether IRS is complying with the statutory
I.R.C.                             information to an             requirements for responding to written requests from
§ 7803(d)(1)(B)                    individual filing a joint     joint filers because both TIGTA and IRS are still unable
                                   return on collection          to readily identify joint filer requests received
I.R.C.                             activity involving the        nationwide. IRS management has decided not to
§ 6103(e)(8)                       other individual filing the   develop a new management control process to
                                   return.                       track joint filer requests. IRS management information
                                                                 systems do not separately record or monitor joint filer
                                                                 requests, and Congress has not explicitly required the
                                                                 IRS to do so. TIGTA does not recommend the creation
                                                                 of a separate tracking system.




                                                                                                                  60
  SEMIANNUAL REPORT TO CONGRESS                                                   SEPTEMBER 30, 2003




 REFERENCE TO STATUTORY             EXPLANATION OF THE
       COVERAGE                         PROVISION                         COMMENTS/TIGTA AUDIT STATUS

Taxpayer Complaints               Requires TIGTA to include     Reference No. 2003-10-184, September 2003
                                  in each of its Semiannual
I.R.C.                            Reports to Congress the       The process the IRS used to provide information on
§ 7803(d)(2)(A)                   number of taxpayer            employee misconduct allegations for TIGTA’s
                                  complaints received and       September 2002 Semiannual Report to Congress was
                                  the number of employee        effective. The information provided to TIGTA
                                  misconduct and                accurately reflected the employee misconduct
                                  taxpayer abuse                allegation information contained on the Automated
                                  allegations received by       Labor and Employee Relations Tracking System
                                  IRS or TIGTA from             (ALERTS).
                                  taxpayers, IRS employees
                                  and other sources.


Administrative or Civil Actions   Include information           Reference No. 2003-10-138, July 2003
With Respect to the Fair Debt     regarding any
Collection Practices Act of       administrative or civil       Based on a review of information recorded as
1996                              actions with respect to       potential Fair Debt Collection Practices Act (FDCPA)
                                  violations of the fair debt   violations on the IRS computer systems, TIGTA
I.R.C.                            collection provision of       identified three FDCPA violations that occurred after
§ 7803(d)(1)(G)                   I.R.C. § 6304, including a    July 22, 1998, and resulted in administrative actions
                                  summary of such actions,      being taken against employees for the period
I.R.C.                            and any resulting             January 1 through December 31, 2002. In addition,
§ 6304                            judgments or awards           the IRS had no closed cases in which the IRS paid any
Section 3466 of                   granted.                      money to taxpayers for civil actions resulting from
RRA 98                                                          FDCPA violations.


Denial of Requests for            Include information           Reference No. 2003-10-164, August 2003
Information                       regarding improper
                                  denial of requests for        The IRS improperly withheld information from
I.R.C.                            information from IRS,         requesters in 7.4% of the Freedom of Information
§ 7803(d)(1)(F)                   based on a statistically      Act (FOIA) and Privacy Act (PA) requests, and 9.3%
                                  valid sample of the total     of the I.R.C. § 6103 requests reviewed. Additionally,
I.R.C.                            number of                     the IRS did not respond timely to requesters in 43.5%
§ 7803(d)(3)(A)                   determinations made by        of the cases included in TIGTA’s sample of
                                  IRS to deny written           information that was denied or where the IRS
                                  requests to disclose          replied that responsive records were not available.
                                  information to taxpayers      TIGTA’s statistically valid samples were taken from
                                  on the basis of I.R.C.        cases closed during the period January 1 through
                                  § 6103 or                     June 30, 2002. TIGTA estimated that information
                                  5 U.S.C. § 552(b)(7).         was improperly withheld from responses to 320
                                                                FOIA and PA requests and 540 I.R.C. § 6103
                                                                requests during the sample period. TIGTA also
                                                                estimated that responses to 1,881 FOIA and PA
                                                                requests were not processed timely during the
                                                                same period.




                                                                                                             61
  SEMIANNUAL REPORT TO CONGRESS                                         SEPTEMBER 30, 2003




 REFERENCE TO STATUTORY          EXPLANATION OF THE
       COVERAGE                      PROVISION                  COMMENTS/TIGTA AUDIT STATUS

Adequacy and Security of the   Evaluation of IRS’      Information Technology:
Technology of the IRS          adequacy and security   Reference No. 2003-20-007, October 2002
                               of its technology.      Reference No. 2003-20-018, November 2002
I.R.C.                                                 Reference No. 2003-20-035, December 2002
§ 7803(d)(1)(D)                                        Reference No. 2003-20-053, February 2003
                                                       Reference No. 2003-20-067, February 2003
                                                       Reference No. 2003-20-070, February 2003
                                                       Reference No. 2003-20-069, March 2003
                                                       Reference No. 2003-20-089, March 2003
                                                       Reference No. 2003-10-103, May 2003
                                                       Reference No. 2003-20-109, May 2003
                                                       Reference No. 2003-20-117, May 2003
                                                       Reference No. 2003-20-127, June 2003
                                                       Reference No. 2003-10-140, July 2003
                                                       Reference No. 2003-20-151, July 2003
                                                       Reference No. 2003-20-161, August 2003
                                                       Reference No. 2003-40-165, August 2003
                                                       Reference No. 2003-10-179, August 2003
                                                       Reference No. 2003-20-178, September 2003
                                                       Reference No. 2003-20-208, September 2003
                                                       Reference No. 2003-20-209, September 2003
                                                       Reference No. 2003-20-219, September 2003

                                                       Security Reviews:
                                                       Reference No. 2003-20-003, October 2002
                                                       Reference No. 2003-20-004, October 2002
                                                       Reference No. 2003-20-005, October 2002
                                                       Reference No. 2003-20-019, October 2002
                                                       Reference No. 2003-20-026, December 2002
                                                       Reference No. 2003-20-047, February 2003
                                                       Reference No. 2003-20-049, February 2003
                                                       Reference No. 2003-20-056, February 2003
                                                       Reference No. 2003-20-064, February 2003
                                                       Reference No. 2003-20-082, March 2003
                                                       Reference No. 2003-20-084, April 2003
                                                       Reference No. 2003-20-095, April 2003
                                                       Reference No. 2003-20-119, May 2003
                                                       Reference No. 2003-20-133, June 2003
                                                       Reference No. 2003-20-118, July 2003
                                                       Reference No. 2003-10-170, August 2003
                                                       Reference No. 2003-20-211, September 2003
                                                       Reference No. 2003-20-220, September 2003




                                                                                                   62
    SEMIANNUAL REPORT TO CONGRESS                                                SEPTEMBER 30, 2003



                           APPENDIX VI – SECTION 1203 STANDARDS

In general, the Commissioner of Internal Revenue shall terminate the employment of any
employee of IRS if there is a final administrative or judicial determination that in the performance of
official duties such employee committed the misconduct violations outlined below. Such
termination shall be a removal for cause on charges of misconduct.

Misconduct violations include:

•   Willful failure to obtain the required approval signatures on documents authorizing the seizure
of a taxpayer’s home, personal belongings, or business assets.

•    Providing a false statement under oath with respect to a material matter involving a taxpayer
or taxpayer representative.

•    Violating, with respect to a taxpayer, taxpayer representative, or other employee of the IRS,
any right under the Constitution of the United States, or any civil right established under Title VI or VII
of the Civil Rights Act of 1964; Title IX of the Education Amendments of 1972; Age Discrimination in
Employment Act of 1967; Age Discrimination Act of 1975; Section 501 or 504 of the Rehabilitation
Act of 1973; or Title I of the Americans with Disabilities Act of 1990.

•   Falsifying or destroying documents to conceal mistakes made by any employee with respect
to a matter involving a taxpayer or taxpayer representative.

•    Committing assault or battery on a taxpayer, taxpayer representative, or other employee of
the IRS, but only if there is a criminal conviction, or a final judgment by a court in a civil case, with
respect to the assault or battery.

•    Violating the Internal Revenue Code of 1986, Treasury regulations, or policies of the IRS
(including the Internal Revenue Manual) for the purpose of retaliating against, or harassing a
taxpayer, taxpayer representative, or other employee of the IRS.

•   Willfully misusing provisions of Section 6103 of the Internal Revenue Code of 1986 for the
purpose of concealing information from a Congressional inquiry.

•   Willfully failing to file any return of tax required under the Internal Revenue Code of 1986 on or
before the date prescribed therefore (including any extensions), unless such failure is due to
reasonable cause and not to willful neglect.

•  Willfully understating Federal tax liability, unless such understatement is due to reasonable
cause and not to willful neglect.

•    Threatening to audit a taxpayer for the purpose of extracting personal gain or benefit.

In general, the Commissioner of Internal Revenue may take a personnel action other than
employment termination for the misconduct violations outlined above. The exercise of this
authority shall be at the sole discretion of the Commissioner and may not be delegated to any
other officer. The Commissioner, in his/her sole discretion, may establish a procedure that will be
used to determine whether an individual should be referred to the Commissioner for a
determination by the Commissioner. Any determination of the Commissioner in these matters may
not be appealed in any administrative or judicial proceeding.




                                                                                                            63
SEMIANNUAL REPORT TO CONGRESS                SEPTEMBER 30, 2003




    HOTLINE INFORMATION


Call our toll-free hotline to report fraud, waste or abuse:

              1-800-366-4484

                         or write:


   Treasury Inspector General for
        Tax Administration
           P.O. Box 589
        Ben Franklin Station
    Washington, D.C. 20044-0589


        Information is confidential and you may
                  remain anonymous




                                                          64
